Report No. D-2011-068               June 8, 2011




     Additional Actions Can Improve Naval Air Systems
    Command's Use of Undefinitized Contractual Actions
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
BCM                           Business Clearance Memorandum
DFARS                         Defense Federal Acquisition Regulation Supplement
DPAP                          Defense Procurement and Acquisition Policy
FAR                           Federal Acquisition Regulation
FPDS-NG                       Federal Procurement Data System-Next Generation
GAO                           Government Accountability Office
IG                            Inspector General
NAVAIR                        Naval Air Systems Command
NTE                           Not-to-Exceed
UCA                           Undefinitized Contractual Action
U.S.C.                        United States Code
                                    INSPECTOR GENERAL 

                                  DEPARTMENT OF DEFENSE 

                                     400 ARMY NAVY DRIVE 

                                ARLINGTON, VIRGINIA 22202-4704 


                                                                                     June 8, 2011

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
              UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF
                 FINANCIAL OFFICER
              NAVAL INSPECTOR GENERAL

SUBJECT: Additional Actions Can Improve Naval Air Systems Command's Use of
         Undefinitized Contractual Actions (Report No. D-20 11-068)

We are providing this report for review and comment. Naval Air Systems Command officials
did not consistently comply with statutory and DoD requirements for managing undefinitized
contractual actions, resulting in the Navy assuming additional risk in the award and negotiation
process and possibly paying more profit than necessary. This report is the fourth in a series of
reports and is a part of a congressionally mandated periodic review of DoD lise of undefinitized
contractual actions. We considered management comments on a draft of the report in preparing
the final report.

DoD Directive 7650.3 requires that recommendations be resolved promptly. The comments
from the Deputy Assistant Commander for Contracts, Naval Air Systems Command, who
responded for the Commander of Naval Air Systems Command, and the Assistant Commander
for Contracts, were paliially responsive. As a result, we request additional comments from the
Assistant Commander for Contracts on Recommendation 2.d by August 8, 2011.

Ifpossible, please send a .pdffile containing your comments to audacm@dod ig.mi l. Copies of
your comments must have the actual signature of the authorizing official for your organization.
We are unable to accept the ISignedl symbol in place of the actual signature . If you arrange to
send classified comments electronically, you must send them over the SECRET Internet Protocol
Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at (703)
604-9201 (DSN 664-9201).




                                      ~/3 . ~                                                       

                                             Richard B. Jolliffe
                                             Assistant Inspector General
                                             Acquisition and Contract Management
   Report No. D-2011-068 (Project No. D2009-D000CG-0248.003) 	                        June 8, 2011


                   Results in Brief: Additional Actions Can
                   Improve Naval Air Systems Command’s Use
                   of Undefinitized Contractual Actions
What We Did                                                     3 UCAs because they miscalculated or
                                                                inappropriately allocated funding; and
Public Law 99-591, section 908(b) requires the
                                                               obligate funds in accordance with the
DoD Inspector General to periodically audit
                                                                contractor’s proposed requirements for 7 UCAs
undefinitized contractual actions (UCAs) and
                                                                because they did not take steps to comply with
submit a report to Congress. This is the fourth in a
                                                                Office of Defense Procurement and Acquisition
series of reports discussing DoD compliance with
                                                                Policy requirements for obligating funds.
section 2326, title 10, United States Code.
                                                            However, NAVAIR contracting personnel
We reviewed 52 UCAs with a total not-to-exceed
                                                            adequately documented their determination of price
value of about $1.6 billion awarded by the Naval
                                                            reasonableness for all 51 definitized UCAs, with the
Air Systems Command (NAVAIR) from FY 2004
                                                            exception of adequately documenting the
through FY 2009 to determine whether NAVAIR
                                                            determination of profit.
personnel complied with the restrictions of the
United States Code and whether they appropriately
                                                            As a result, the Navy assumed increased cost risk in
justified and definitized UCAs at reasonable prices.
                                                            the award and negotiation process and may have
What We Found                                               paid excessive profit.
NAVAIR officials did not consistently comply with
statutory and DoD requirements for managing 36 of           What We Recommend
the 52 UCAs we reviewed. NAVAIR personnel did               Navy officials should develop procedures to prepare
not:                                                        adequate requests, enforce regulations to reduce
 adequately prepare authorization requests to              contractor payments for untimely proposals, require
    issue 7 UCAs because NAVAIR Instructions                better coordination to identify changes in
    did not clearly define UCA approval delegations         requirements, update guidance to document reduced
    and personnel did not adequately address                cost risk consideration, document the amount of
    requirements in the authorization requests;             actual costs incurred, and avoid obligating funds to
	 properly justify the issuance of 4 UCAs because          the maximum amount allowable.
    they did not adequately describe the necessity of
    a UCA to meet requirements;                             Management Comments and Our
	 definitize 29 UCAs within the 180-day time               Response
    frame because the contractor submitted
                                                            The Deputy Assistant Commander for Contracts,
    untimely or inadequate proposals, Government
                                                            Naval Air Systems Command, partially agreed with
    personnel changed requirements after UCA
                                                            our recommendations. However, one management
    issuance, and additional contributing factors;
                                                            comment was not fully responsive. We request that
	 adequately support all required elements of
                                                            the Assistant Commander for Contracts, Naval Air
    profit determination for 5 UCAs because they
                                                            Systems Command, provide additional comments.
    did not adequately document their consideration
                                                            Please see the recommendations table on the back of
    of reduced cost risk or the inputs used to create
                                                            this page.
    the profit objective;
	 obligate funds within allowable limits for


                                                        i
Report No. D-2011-068 (Project No. D2009-D000CG-0248.003)             June 8, 2011


Recommendations Table

        Management                  Recommendations         No Additional Comments
                                   Requiring Comment               Required
Commander, Naval Air Systems                                       1.a and b
Command
Assistant Commander for                           2.d               2.a - c
Contracts, Naval Air Systems
Command

Please provide comments by August 8, 2011.




                                             ii
Table of Contents

Introduction	                                                                1     


      Audit Objectives                                                       1

      Legislation and Congressional Report Requirement                       1

      Background                                                             1     

      Naval Air Systems Command                                              3

      Review of Internal Controls at NAVAIR                                  4


Finding. Inconsistent Management of Undefinitized Contractual Actions        5


      UCA Deficiencies          	                                            6     

      NAVAIR Needs to Improve Authorization Procedures 	                     6

      Better Justification Needed Before Issuing UCAs 	                      8

      NAVAIR Lack of Compliance With Definitization Requirements            10 

      NAVAIR Generally Complied With Requirements to Reflect the
              Undefinitized Period on Allowable Profit 	                    19 

      NAVAIR Generally Funded UCAs Within Obligation Limitations            24 

      Inconsistent Obligation of Funds for UCA Requirements 	               25 

      NAVAIR Adequately Documented Fair and Reasonable Pricing              26 

      Conclusion          	                                                 28     

      Management Comments on the Finding 	                                  28 

      Recommendations, Management Comments, and Our Response                28 


Appendices

      A. 	Scope and Methodology                                             32 

             Universe and Sample Information                                32 

             Review of Documentation and Interviews                         33 

             Use of Computer-Processed Data                                 35 

             Use of Technical Assistance                                    35 

             Prior Coverage                                                 35 

      B. August 29, 2008, Office of Defense Procurement and Acquisition 

             Policy Memorandum                                              37     

      C. Undefinitized Contractual Actions Reviewed 	                       39 

      D. Deficiencies Identified	                                           44

      E. Definitization Elapsed Days for NAVAIR UCAs 	                      48

      F. Summary of Management Comments on the Finding and Our Response     51


Management Comments

      Naval Air Systems Command       	                                     54

Introduction
Audit Objectives
We determined Naval Air Systems Command (NAVAIR) compliance with restrictions
imposed by section 2326, title 10, United States Code (10 U.S.C. § 2326 [2009]),
“Undefinitized contractual actions: restrictions” when awarding and managing
undefinitized contractual actions (UCAs). We also determined whether UCAs were
appropriately justified and documented at fair and reasonable prices. This is the fourth in
a series of reports discussing DoD compliance with 10 U.S.C. § 2326 (2009). See
Appendix A for the scope and methodology and prior coverage related to the objectives.

Legislation and Congressional Report Requirement
The DoD Inspector General (IG) is required by Public Law 99-591, “Continuing 

Appropriations for Fiscal Year 1987,” section 908(b), to periodically conduct audits of 

UCAs. DoD IG Report No. D-2004-112, “Undefinitized Contractual Actions,” 

August 30, 2004, was our last audit before beginning this series of UCA audits. 

Section 908 of Public Law 99-591, “Requirements Relating to Undefinitized Contractual 

Actions,” states: 


               (b) Oversight by Inspector General.—The Inspector General of the
               Department of Defense shall—

                (1) periodically conduct an audit of contractual actions under the
               jurisdiction of the Secretary of Defense (with respect to the Defense
               Logistics Agency) and the Secretaries of the military departments; and

                (2) after each audit, submit to Congress a report on the management of
               undefinitized contractual actions by each Secretary, including the
               amount of contractual actions under the jurisdiction of each Secretary
               that is represented by undefinitized contractual actions.

Background
UCAs are agreements that allow a contractor to begin work and incur costs before the
Government and the contractor have reached a final agreement on contract terms,
specifications, or price. Contracting officers should use UCAs only when the negotiation
of a definitive contractual action is not possible in sufficient time to meet the
Government’s requirement. The Government’s requirement must also demand that the
contractor be given a binding commitment so that contract performance can begin
immediately.

UCA Restrictions
        Section 2326, title 10, United States Code, requires that the authorization request
to issue a UCA contain the anticipated impact on agency requirements if a UCA is not
used and establishes limitations on the obligation of funds, on the definitization of terms,
and on the allowable profit for UCAs. UCAs for foreign military sales, purchases that do


                                                 1

not exceed the simplified acquisition threshold, special access programs, and
congressionally mandated long-lead procurement contracts are not subject to compliance
with 10 U.S.C. § 2326. However, these UCAs must comply with the Defense Federal
Acquisition Regulation Supplement (DFARS) 217.74, “Undefinitized Contract Actions,”
to the maximum extent practicable. Both 10 U.S.C. § 2326 and the DFARS provide
additional restrictions for the approval, definitization, obligation of funds, and
determination of allowable contractor profit.

Specifically, we reviewed the following four areas to determine whether UCAs issued by
NAVAIR contracting personnel were in compliance.

   	 Authorization to Use a UCA: We evaluated whether contracting personnel issued
      UCAs only after obtaining proper authorization. Additionally, we reviewed the
      requests to issue a UCA to verify that the requests adequately explain the need to
      begin performance before definitization and address potential adverse impacts on
      agency requirements if a UCA was not issued.

   	 Contract Definitization: We evaluated whether NAVAIR personnel definitized
      UCAs within 180-day time limits.

   	 Allowable Profit: We evaluated whether NAVAIR contracting personnel’s
      determination of contractor profit reflected the work performed during the
      undefinitized period.

   	 Compliance with Obligation Limitations: We evaluated whether NAVAIR
      contracting personnel obligated funding within allowable amounts.

We also reviewed UCAs to determine whether NAVAIR personnel appropriately
justified the need to use a UCA and whether NAVAIR personnel adequately documented
price reasonableness. In addition, we reviewed UCAs issued after August 2008 to
determine whether NAVAIR personnel obligated funds in accordance with the Office of
Defense Procurement and Acquisition Policy’s (DPAP) August 29, 2008, memorandum,
“Management Oversight of Undefinitized Contract Actions,” (the August 2008 DPAP
memorandum).

Enhanced Reporting Requirements
        DPAP issued the August 2008 DPAP memorandum requiring semiannual
reporting of DoD UCA usage for actions with an estimated value of more than
$5 million. See Appendix B for a copy of the memorandum. DPAP introduced the
enhanced reporting requirement in response to the Government Accountability Office
(GAO) Report No. GAO-07-559, “Defense Contracting: Use of Undefinitized Contract
Actions Understated and Definitization Time Frames Often Not Met,” June 2007, and
Public Law 110-181, “The National Defense Authorization Act for Fiscal Year 2008,”
section 809, “Implementation and Enforcement of Requirements Applicable to
Undefinitized Contractual Actions.”



                                           2

Naval Air Systems Command
The NAVAIR mission is to “provide full life-cycle support of naval aviation aircraft,
weapons, and systems operated by Sailors and Marines.” This support includes research,
design, development, and systems engineering; acquisition; test and evaluation; training
facilities and equipment; repair and modification; and in-service engineering and logistics
support. NAVAIR delivers products and support to the operating forces including
aircraft, avionics, air-launched weapons, electronic warfare systems, cruise missiles,
unmanned aerial vehicles, launch and arresting gear, training equipment and facilities,
and all other equipment related to Navy and Marine Corps air power. NAVAIR officials
stated that contracting personnel obligated approximately $26.6 billion during FY 2009.

Contracting Departments at NAVAIR
    NAVAIR’s Contracting Directorate, NAVAIR 2.0, consisted of six departments. The
Assistant Commander for Contracts, AIR-2.0, was responsible for overseeing
NAVAIR 2.0 and was assisted by AIR-2.0A and AIR-2.0B, the Deputy Assistant
Commanders for Contracts. Within NAVAIR 2.0, we reviewed UCAs from the
following three departments.

   	 AIR 2.2 Major Weapons Systems for Tactical Aircraft and Missiles -
      Provided contract management and planning for Naval aviation programs
      assigned to the Program Executive Officer for Tactical Aircraft Programs,
      including major weapons systems for tactical aircraft, air assault, special
      missions, and missiles. AIR 2.2 managed and executed the contracting functions
      for tactical aircraft programs such as the F/A-18.

   	 AIR 2.3 Major Weapons Systems for Air Antisubmarine Warfare, Assault,
      and Special Mission Programs - Provided contract management and planning
      for Naval aviation programs assigned to the Program Executive Officer for Air
      Antisubmarine Warfare, Assault, and Special Mission Programs, including major
      weapons systems for Air Antisubmarine Warfare and rotary wing programs.
      AIR 2.3 managed and executed the contracting functions for programs such as the
      P-3, the V-22, and the Presidential Helicopter.

   	 AIR 2.4 Strike Weapons and Unmanned Aviation - Provided contract
      management and planning for Naval aviation programs assigned to the Program
      Executive Officer for Strike Weapons and Unmanned Aviation. AIR 2.4
      managed and executed the contracting functions for strike weapons programs
      such as the Advanced Antiradiation Guided Missile as well as unmanned aviation
      vehicles such as the Vertical Takeoff and Landing Tactical Unmanned Aerial
      Vehicle.




                                            3

NAVAIR UCA Usage (FY 2004─FY 2009)
        We selected a nonstatistical sample1 of 28 contracts that included 52 UCAs issued
by NAVAIR contracting personnel from FY 2004 through FY 2009, with a total UCA
not-to-exceed (NTE) dollar value of about $1.6 billion. We identified letter contracts2
through queries of the Federal Procurement Data System-Next Generation (FPDS-NG)
and UCAs from a listing provided by NAVAIR. We excluded letter contracts and UCAs
related to foreign military sales, congressionally mandated long-lead procurements, and
change orders. See Appendix C for a list of UCAs reviewed. Table 1 lists by NAVAIR
department the number of contracts, the number of UCAs, and the total NTE dollar value
of the UCAs that we reviewed.
            Table 1. Nonstatistical Sample of NAVAIR UCAs by Department 

                                    FY 2004─FY 2009 


     NAVAIR                     Number of              Number of                  Not-to-Exceed
    Department                  Contracts                UCAs                      Dollar Value
       AIR 2.2                     10                     13                       $605,223,581
       AIR 2.3                     10                     23                        534,064,545
       AIR 2.4                      8                     16                        455,088,502
Totals                             28                     52                      $1,594,376,628

Review of Internal Controls at NAVAIR
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses for NAVAIR. NAVAIR did not consistently manage UCAs. Specifically,
NAVAIR officials issued UCAs based on inadequate authorization requests, did not
adequately justify UCAs, and did not definitize UCAs within allowable time frames. In
addition, contracting officials inadequately documented how costs incurred during the
undefinitized period impacted the contractor’s profit. Moreover, delays in definitizing
contracts may have weakened NAVAIR contracting officials’ position in price
negotiations and increased the cost to the Government. Additionally, NAVAIR’s
contracting officials did not adequately document their profit determination, which may
have resulted in excess profit. We will provide a copy of the report to the senior officials
responsible for internal controls at NAVAIR.




1
  A nonstatistical sample does not generalize to universe; therefore, audit results should not be projected 

across all NAVAIR UCAs. 

2
  A letter contract is a written preliminary contractual instrument that allows a contractor to start work

before the finalization of the contract terms. 



                                                      4

Finding. Inconsistent Management of
Undefinitized Contractual Actions
NAVAIR contracting personnel did not consistently comply with statutory and DoD
requirements for managing 36 of the 52 UCAs we reviewed. For the 36 UCAs, valued at
about $1.2 billion, NAVAIR personnel did not:
 adequately prepare authorization requests to issue 7 UCAs because NAVAIR
   Instructions did not define UCA approval delegations in the absence of the authorized
   approving official and did not adequately describe the need to begin performance
   before definitization and the adverse impact on Navy requirements;
	 properly justify the issuance of 4 UCAs because they did not adequately describe why
   a UCA was necessary to meet the Navy’s requirements;
	 definitize 29 UCAs within the 180-day time frame because of multiple contributing
   factors that included a lack of contracting personnel to complete definitization,
   contractors not submitting adequate proposals in a timely manner, or Government
   personnel changing contract requirements after NAVAIR contracting personnel
   issued the UCA. The contractors’ proposal pricing updates and extended contract
   negotiations with Government personnel also impacted NAVAIR contracting
   personnel’s ability to definitize UCAs within the required time frames;
	 adequately support all required elements of profit determinations for 5 UCAs because
   the business clearance memorandum did not include sufficient support that would
   allow an independent party to determine if the contracting officer’s consideration of
   reduced cost risk was reflected in profit objectives or the inputs used to develop the
   profit objective; and
	 obligate funds within allowable limits for 3 UCAs because they miscalculated the
   allowable obligation amount and inappropriately allocated funding.

In addition, NAVAIR contracting personnel did not obligate funds in accordance with the
contractor’s proposed requirements for 7 of 22 UCAs issued after the August 2008 DPAP
memorandum because they did not take steps to comply with the August 2008 DPAP
memorandum. However, NAVAIR contracting personnel adequately documented their
determination of price reasonableness for all 51 definitized UCAs,3 but they did not
always adequately document their determination of profit as discussed in the report.

As a result, NAVAIR officials’ positions in price negotiation and award may have been
weakened, and delays in definitizing contracts may have increased the cost to the
Government. Additionally, the Government may have paid excess profit to the
contractors because NAVAIR contracting officials did not adequately document
allowable profit.




3
    One UCA was in the process of being terminated as of May 24, 2011.


                                                    5

UCA Deficiencies
Our review of 52 UCAs issued by NAVAIR contracting personnel identified 55 total
deficiencies. Some UCAs had more than one deficiency. UCA deficiencies consisted of
six types: inadequate authorization, inadequate justification, untimely definitization,
insufficient documentation supporting profit determination, funds obligated in excess of
allowable limits, and funds not obligated in accordance with requirements outlined in the
2008 DPAP memorandum. See Appendix D for further details of the deficiencies.

NAVAIR Needs to Improve Authorization Procedures
NAVAIR contracting personnel did not obtain proper authorization before issuing 7 of
52 UCAs. NAVAIR contracting personnel were unable to provide guidance confirming
that the proper officials authorized the issuance of two UCAs. In addition, NAVAIR
personnel prepared requests to issue five UCAs that did not include an adequate
explanation of the impact on Navy requirements if they did not issue a UCA. Both
10 U.S.C. § 2326 and the DFARS provide guidance on issuing UCAs. Section 2326(a),
title 10, United States Code, states:

               The head of an agency may not enter into an undefinitized contractual
               action unless the request to the head of the agency for authorization of
               the contractual action includes a description of the anticipated effect on
               requirements of the military department concerned if a delay is incurred
               for purposes of determining contractual terms, specifications, and price
               before performance is begun under the contractual action.

DFARS 217.7404-1, “Authorization,” requires that the contracting officer obtain
approval from the head of the contracting activity before entering into a UCA and also
requires that the request for UCA approval include a full explanation of the need to begin
contract performance before contract definitization, including the adverse impact on
agency requirements resulting from delays in beginning performance.

Obtaining Approval for UCA Issuance
        The authorized NAVAIR official did not approve the issuance for 2 of the
52 UCAs reviewed. A department head for a different department approved the
authorization request to issue each of these UCAs. Although contracting personnel stated
that the approving officials had the authority to sign and approve the UCA authorization
requests, contracting personnel did not provide documentation providing this authority or
delegating authority in the absence of a department head. Both UCAs were issued under
NAVAIR Instruction 4200.33C, “Undefinitized Contract Actions,” April 14, 2000, which
delegated to the cognizant contracts competency department head the authority to
approve entering into a UCA.

NAVAIR Instruction 4200.33C did not contain procedures on UCA approval delegations
when the cognizant contracts competency department head was unavailable. NAVAIR
ltr 4200 Ser AIR-2.1.1.1/089, “Head of Contracting Activity (HCA) Delegation of
Authority,” July 17, 2003, and the Policy and Procedures Memorandum #181, May 18,
2006, the replacement of the same title, both delegated authority to AIR-2.0 Senior


                                                   6

Executive Service department heads without power of redelegation. This guidance also
stated that the delegations were subject to all other applicable regulations and guidance.
Consequently, the contracting officers had to follow NAVAIR Instruction 4200.33C,
which further restricted the approval authority. We did not determine whether the
department heads were in Senior Executive Service positions at the time of approval.

NAVAIR Instruction 4200.33D, “Undefinitized Contract Actions,” July 2, 2009,
supersedes NAVAIR Instruction 4200.33C and states that approval authority is delegated
to “AIR-2.0/2.0A, AIR-2.2, AIR-2.3, AIR-2.4, [and] AIR-2.5.” NAVAIR Contracts
Competency Instruction 4200.59, “Head of Contracting Activity (HCA) Delegation of
Authority,” February 12, 2010, supersedes Policy and Procedures Memorandum #181
and delegates the authority to approve entering into a UCA to the Senior Executive
Service and non-Senior Executive Service department head. The authority provided by
the NAVAIR Instruction 4200.59 cannot be redelegated. Both current Instructions
delegate UCA approval authority to all contracting department heads as well as the head
of the contracting activity. This delegation to all department heads provides approval
alternatives in the absence of the department head; therefore, we are not making a
recommendation on this issue.

Inadequate Description of Need to Begin Performance and
Adverse Impact on Navy Requirements
        NAVAIR contracting personnel issued five UCAs that did not fully describe the
need to begin performance before definitization and the adverse impact on Navy
requirements in the request for authorization to issue a UCA. NAVAIR program
personnel prepared requests to issue three separate UCAs that lacked full explanations of
why performance was needed to begin before definitization. In addition, NAVAIR
program personnel did not adequately explain the adverse impact on agency requirements
if a UCA was not issued for four UCAs. An authorization request may lack explanations
for both requirements. NAVAIR should develop procedures in the contract review
process to ensure contracting department heads approve authorization requests to issue
UCAs only when program officials clearly state the need to begin performance before
definitization and the adverse impact on Navy requirements.

NAVAIR program personnel initiate the process by defining the requirements, then,
according to NAVAIR policy officials, forward the request to issue a UCA to the
contracting department head for approval. Initially, program personnel create and
complete a request for the issuance of a UCA. The Program Executive Officer approves
the portion of the form that identifies the urgent need for the requirement, the adverse
impact of delaying performance, and other details pertaining to the UCA. According to
policy officials, the program office then forwards the form to the contracting department
head to obtain approval for the contracting department to enter into a UCA. The
contracting department head reviews the authorization request to determine if a UCA is
needed to meet the required delivery date and for compliance with DFARS 217.7404-1
documentation requirements. The contracting department head must approve and sign
the request before a UCA is issued.



                                             7

NAVAIR program personnel prepared and contracting department heads approved
authorization requests for five UCAs with a combined NTE value of about $243.4 million
that did not adequately describe the need to begin performance before definitization or
did not adequately describe the adverse impact on Navy requirements. For example,
NAVAIR personnel prepared and approved the authorization request for three separate
UCAs on two contracts from FY 2004 to FY 2007 and stated that a delay in award of a
UCA would result in a delay in the delivery of mission computers and displays, which
would in turn cause a slip in the delivery of multiple F/A-18E/F aircraft lots. However,
NAVAIR program personnel did not adequately explain in the request for authorization
for all three UCAs the need to begin performance before definitization. NAVAIR
personnel did not state the immediate need for the mission computers and displays or for
the aircraft being procured. For two of the three UCAs, NAVAIR program personnel did
not adequately describe the adverse impact on the Navy by not providing any of the
consequences that a delay in delivery would cause.

Better Justification Needed Before Issuing UCAs
NAVAIR personnel did not adequately justify the use of 4 of 52 UCAs.
DFARS 217.7403, “Policy,” limits the use of a UCA to situations when negotiating a
definitive contract is not possible and the Government’s interest demands contract
performance begin immediately. NAVAIR personnel cited several reasons in the
contract documentation for the urgent need to issue UCAs. NAVAIR contracting
personnel awarded UCAs to meet urgent operational or acquisition phase needs and
because of a lack of available funds to meet needs. Contracting personnel also awarded
UCAs because they were unable to definitize the action before the need for performance
due to problems with proposals, lengthy negotiations, and restructuring within the
contractor. Contracting personnel issued some UCAs for multiple reasons. From the
contract file, we identified 30 UCAs with 1 reason and 18 UCAs with 2 reasons each.
For four UCAs, we were unable to identify an adequate justification for the issuance of
the UCA as described in the next two examples. Figure 1 shows the reasons for
NAVAIR UCA usage.




                                           8

                     Figure 1. Reasons NAVAIR Personnel Issued UCAs*
      45
                    39
      40

      35

      30

      25

      20
                                                                                         16
      15

      10                                   9

       5
                                                                   2
       0
            Urgent Operational     Acquisition Phase        Lack of Available   Unable to Definitize 

                 Needs                  Needs                    Funds               Contract



*
    NAVAIR contracting personnel may have issued a UCA for multiple reasons.

    Contract N00019-07-C-0041
         NAVAIR contracting personnel awarded three separate UCAs on contract
N00019-07-C-0041 to procure long-lead parts for Low-Rate Initial Production I and to
support the Low-Rate Initial Production II and III of the Vertical Takeoff and Landing
Tactical Unmanned Aerial Vehicles. NAVAIR program personnel stated in all the
authorization requests that a UCA was needed to prevent a break in the existing
production line. According to contracting personnel, this program had an unstable budget
and changing requirements, and until the requirements and funding are finalized, a
contractor cannot provide a proposal. NAVAIR Instructions 4200.33C and 4200.33D
state, “Use of UCAs will be kept to an absolute minimum, and will not be used for
requirements that are not clearly defined.” NAVAIR program personnel stated in the
authorization requests that the UCA was needed to save the Government money by
preventing a gap in production, but by issuing multiple UCAs for consecutive Low-Rate
Initial Production lots without clearly defined requirements, NAVAIR personnel placed
the Government at a higher risk.

Contract N00019-04-C-3146, Modification P00139
       NAVAIR contracting personnel issued a UCA on August 26, 2009, on contract
N00019-04-C-3146, modification P00139, to update Annex B to include additional
Requirement Identifiers from the Interface Requirements Specification in support of the
Advanced Airborne Sensor program. NAVAIR personnel met on July 30, 2009, for a
procurement planning conference and decided that the action needed to be awarded on
January 26, 2010. According to an August 26, 2009, memorandum to the file, the action


                                                       9

was then considered to be an urgent action. The procurement planning agreement, the
memorandum to the file, and the August 20, 2009, Certificate of Urgency did not identify
the need for the change in urgency or any new information or changing requirements
received between July and August that would have created the need for a UCA instead of
following the original plan. NAVAIR contracting personnel stated that the contracting
plan agreed to during the procurement planning conference was determined to pose a
high risk to the Advanced Airborne Sensor program. However, NAVAIR personnel were
unable to provide an explanation for why this high risk was not identified during planning
or any new information or changing requirements received between July and August that
would have created the need for a UCA. NAVAIR program personnel should
adequately justify the need for the UCA in the contract documentation to meet the Navy’s
requirements.

NAVAIR Lack of Compliance With Definitization
Requirements
NAVAIR contracting personnel did not definitize 29 of 52 UCAs within the 180-day
time frames specified by 10 U.S.C. § 2326. NAVAIR contracting personnel took less
time to definitize UCAs after receiving the contractor’s qualifying proposal than to
definitize UCAs issued before receipt of a qualifying proposal. Contracting personnel
did not document the need to issue UCAs before a qualifying proposal was received in
accordance with NAVAIR policy for 3 of 29 UCAs. Contracting personnel were not able
to definitize 29 UCAs within required time frames because of multiple contributing
factors. The factors included a lack of NAVAIR contracting personnel to complete
definitization, contractors not submitting adequate proposals in a timely manner, or
Government personnel changing contract requirements after NAVAIR contracting
personnel issued the UCA. The contractors’ updated proposal pricing and extended
contract negotiations with Government personnel also impacted NAVAIR contracting
personnel’s ability to definitize UCAs within the required time frames.

Section 2326(b), title 10, United States Code, states:

           A contracting officer of the Department of Defense may not enter into an
           undefinitized contractual action unless the contractual action provides for
           agreement upon contractual terms, specifications, and price by the earlier
           of—

               (A) the end of the 180-day period beginning on the date on which the
               contractor submits a qualifying proposal to definitize the contractual
               terms, specifications, and price; or

               (B) the date on which the amount of funds obligated under the
               contractual action is equal to more than 50 percent of the negotiated
               overall ceiling price for the contractual action.

Section 2326(g)(2) defines a “qualifying proposal” as:

               . . . a proposal that contains sufficient information to enable the
               Department of Defense to conduct complete and meaningful audits of



                                                 10

                   the information contained in the proposal and of any other information
                   that the Department is entitled to review in connection with the
                   contract, as determined by the contracting officer.

NAVAIR personnel exceeded the statutory time limits for 29 of the 52 UCAs reviewed,
and, on average, definitized those actions 114 days past the 180-day time frame.
NAVAIR contracting personnel averaged 344 days from UCA issuance to definitization
for the 29 UCAs. Of the 29 UCAs that exceeded the time limits, 1 was undefinitized4 as
of May 24, 2011. See Appendix E for elapsed days between UCA issuance and
definitization.

Untimely Definitization Decreased When NAVAIR Issued UCAs
After Receipt of Qualifying Proposal
        NAVAIR contracting personnel took less time to definitize the late UCAs when
awarded after receipt of the contractor’s qualifying proposal. DFARS Subpart 217.74,
“Undefinitized Contract Actions,” requires definitization to occur 180 days after the UCA
is issued, but may be extended an additional 180 days upon receipt of the contractor’s
qualifying proposal. NAVAIR contracting personnel did not definitize 10 UCAs issued
after the contractors submitted qualifying proposals within time frames specified by
10 U.S.C. § 2326, averaging 263 days from UCA issuance to definitization. Contracting
personnel did not definitize 19 UCAs issued before the contractors submitted qualifying
proposals within required time frames. Contracting personnel took longer to definitize
the UCAs when qualifying proposals were not received before award, averaging 310 days
from proposal receipt to definitization and 387 days from UCA issuance to definitization.

NAVAIR personnel did not adequately document in the authorization request the need to
issue the UCA before a qualifying proposal was received for 3 of 19 late UCAs. In total,
we identified four deficiencies in the authorization requests for the three late UCAs. To
help achieve timely definitization, NAVAIR Instruction 4200.33C and NAVAIR
Instruction 4200.33D require the contracting officer to obtain a fully supportable,
qualifying proposal before UCA award, unless the urgency of the requirement precludes
delaying award for receipt of a contractor’s qualifying proposal. The authorization
request must address the need to award a UCA without a qualifying proposal. NAVAIR
personnel did not document the urgency of the requirement in the authorization request to
issue one UCA and did not document whether or not a qualifying proposal was received
in the authorization request for two UCAs. In addition, contracting personnel
erroneously listed the receipt of a qualifying proposal in one authorization request.

Contributing Factors for Untimely Definitization
        NAVAIR contracting personnel did not definitize 29 UCAs within the required
time frames due to various and multiple contributing factors. Contracting personnel were
not able to definitize within the required time frames 10 UCAs issued after the
contractors submitted a qualifying proposal and 19 UCAs issued before a contractor



4
    One UCA was in the process of being terminated as of May 24, 2011.


                                                    11

   submitted a qualifying proposal. The discussions on each factor that contributed to late
   definitization contain examples of UCAs issued either before or after the receipt of a
   qualifying proposal.

   NAVAIR contracting personnel did not definitize, within required time frames, 10 of
   21 UCAs issued after the contractors submitted qualifying proposals. Contracting
   personnel were not able to definitize the 10 UCAs within required time frames because of
   multiple contributing factors that included Government personnel changing contract
   requirements after NAVAIR contracting personnel issued the UCA, the contractor
   updating proposal pricing, and contractors extending contract negotiations with
   Government personnel. NAVAIR staffing shortages and administration delays5 also
   contributed to NAVAIR contracting personnel not being able to definitize the 10 UCAs.
   Table 2 lists the contributing factors for the late definitizations of the 10 UCAs issued
   after receipt of a qualifying proposal. Some UCAs had more than one contributing factor
   for late definitization.

   Table 2. Contributing Factors for Late Definitization for UCAs Issued After Receipt
                                 of Qualifying Proposal

   Contract Number, Delivery                 Change in           Pricing Delays         Extended               Other*
      Order/Modification                    Government                                 Negotiations
                                            Requirements
N00019-07-C-0035 P00005                                                                      √
N00019-04-C-0014 P00149                                                 √                    √
N00019-05-C-0030 PU0001                            √
N00019-04-C-0028 P00036                                                 √
N00019-05-D-0013 0029-01                                                                                          √
N00019-05-D-0013 0030-01                                                                                          √
N00019-07-C-0041                                   √
N00019-07-C-0041 P00008                                                 √
N00019-07-C-0041 P00013                                                 √
N00019-09-C-0004                                                                                                  √­

              Totals                               2                     4                    2                    3
   *Other reasons included NAVAIR administration delays and staffing shortages. 

   √- The UCA was late to definitize because of staffing shortages. It is listed in the “Other” category for the 

   purposes of the table but will be discussed in the contributing factor section titled “Lack of NAVAIR 

   Contracting Personnel.”


   NAVAIR contracting personnel did not definitize, within required time frames, 19 of
   31 UCAs issued before a contractor submitted a qualifying proposal. Contracting
   personnel were not able to definitize the 19 UCAs within required time frames because of
   multiple contributing factors. The factors included a lack of NAVAIR contracting


   5
    NAVAIR administration delays include the program office’s delay in releasing a technical evaluation and
   the time required for the contracting office to prepare definitization documentation for multiple UCAs.


                                                         12

   personnel, contractors not submitting adequate proposals in a timely manner,
   Government personnel changing contract requirements after NAVAIR contracting
   personnel issued the UCA, contractors updating proposal pricing, and contractors
   extending contract negotiations with Government personnel. Untimely Defense Contract
   Management Agency and Defense Contract Audit Agency response times, NAVAIR
   administration delays, and a contractor’s sale of part of its business also contributed to
    NAVAIR contracting personnel not being able to definitize the 19 UCAs. Table 3 lists
   the contributing factors for the late definitizations of the 19 UCAs issued before receipt
   of a qualifying proposal. Some UCAs had more than one contributing factor for late
   definitization.

       Table 3. Contributing Factors for Late Definitization for UCAs Issued Before 

                              Receipt of Qualifying Proposal 


 Contract Number,          Lack of       Proposal          Change in     Pricing       Extended         Other*
     Delivery             Personnel       Issues          Government     Delays       Negotiations
 Order/Modification                                       Requirements
N00019-09-C-0065                                               √                                          √
N00019-04-C-0005 P00012                      √
N00019-07-C-0057                                                                           √              √
N00019-06-G-0014 0010          √
N00019-06-G-0014 0018          √             √
N00019-08-C-0065                                                                                          √+
N00019-08-C-0066                             √                                                            √
N00019-04-C-3146 P00139                                        √
N00019-04-C-3146 P00146                      √
N00019-05-D-0013 0031          √                                                           √
N00019-05-D-0013 0039          √                                            √
N00019-05-D-0013 0042                                                                                     √
N00019-05-D-0008 0046          √                                            √
N00019-05-D-0008 0056          √                                            √
N00019-07-G-0008 0071                                                       √                             √
N00019-04-C-0015                             √                                             √
N00019-05-C-0045 P00005                      √
N00019-09-D-0015               √                               √                           √
N00019-09-C-0026                             √

        Totals                   7             7                3                 4               4       6
   * Other reasons included untimely Defense Contract Management Agency/Defense Contract Audit Agency
   response times, NAVAIR administration delays, and a contractor’s sale of part of its business.
   √+ UCA was in the process of being terminated as of May 24, 2011.

   Lack of NAVAIR Contracting Personnel
          NAVAIR contracting personnel stated that limited contracting staff, staff
   reassignments, and limited personnel experience contributed to the late definitization of
   eight UCAs. In addition, contracting personnel had to manage other program needs and


                                                    13

requirements during the undefinitized period, such as end of fiscal year procurements and
the award and definitization of additional UCAs. Contracting personnel stated that
contract definitization was delayed in some instances to address higher priority
requirements.

Contract N00019-05-D-0013, Delivery Order 0031
NAVAIR contracting personnel did not definitize contract N00019-05-D-0013, delivery
order 0031, with a NTE value of $17.8 million, within required time frames. NAVAIR
contracting personnel awarded the UCA on November 21, 2008, for Zone 5 sustainment
efforts on the wings of four P-3 aircraft and received a qualifying proposal on
December 19, 2008. The contracting officer stated that during the first 8.5 months of
2009, the review and negotiation of the UCA was impacted because of the analysis and
negotiations of two restructure modifications. NAVAIR did not have enough contracting
staff to support both the restructure modifications for the program and the UCA
definitization. Contracting personnel also cited extended negotiations with the contractor
as a contributing factor for late definitization. As a result, NAVAIR contracting
personnel definitized the UCA 496 days after receiving a qualifying proposal.

Contract N00019-06-G-0014, Delivery Order 0010
NAVAIR contracting personnel did not definitize contract N00019-06-G-0014, delivery
order 0010, with a NTE value of $38.1 million, within required time frames. NAVAIR
contracting personnel awarded the UCA on February 1, 2007, to support an engineering
study on the AAR-47 Missile Approach Warning System probability of detection
improvement program and received a qualifying proposal on May 9, 2007. The
contracting officer stated that NAVAIR contracting personnel had an extremely heavy
workload and deferred work on the UCA until after the fiscal year to award expiring
funds unrelated to the UCA. The contracting officer also stated that it took about
3 months to prepare the business clearance memorandum (BCM) for negotiations
because of the contract specialist’s heavy workload and the need to examine a major
subcontractor’s proposal for the UCA definitization. As a result, NAVAIR contracting
personnel definitized the UCA 327 days after receiving a qualifying proposal.

Proposal Issues
        NAVAIR contracting personnel did not receive adequate contractor proposals or
timely submittals, which contributed to the late definitization of seven UCAs. The
contractor proposals were inadequate because the contracting officers determined that
they did not contain sufficient information to enable DoD personnel to conduct complete
and meaningful audits or determined the proposals contained questionable costs.
Contractors use of multiple subcontractors and proposal resubmissions also added time to
the undefinitized period. Contractor proposal resubmissions sometimes required that
Defense Contract Audit Agency personnel perform additional audit work. If the revised
proposal is deemed inadequate then the revision process starts again. If the contractor
does not submit a timely qualifying proposal, the contracting officer should suspend or
reduce payments to the contractor in accordance with DFARS Subpart 217.74 and
NAVAIR Instruction 4200.33D.



                                           14

Contract N00019-08-C-0066
NAVAIR contracting personnel were unable to definitize the UCA awarded on contract
N00019-08-C-0066, with an NTE value of $129.3 million, within required time frames.
NAVAIR contracting personnel awarded the UCA on August 26, 2008, for the
manufacture and delivery of outer wings for P-3 aircraft. The contractor submitted its
qualifying proposal on January 22, 2009; however, two additional proposal updates were
required before definitization. Overall, the contractor had to update rates to reflect
changes caused by new rate agreements and accounting allocations as well as update its
proposal to reflect the revised delivery schedule caused by the contractor’s delay in outer
wing delivery. Contracting personnel also cited slow Defense Contract Management
Agency and Defense Contract Audit Agency response times as a contributing factor for
late definitization. NAVAIR contracting personnel explained that the two Government
agencies were slow to submit questions to the contractor and that the questions submitted
were vague. In addition, NAVAIR contracting personnel stated that the contractor was
even slower to respond to the information requests and, ultimately, NAVAIR contracting
personnel had to act as an intermediary between the two parties. As a result, NAVAIR
contracting personnel definitized the UCA 588 days after receipt of a qualifying proposal.

Contract N00019-09-C-0026
NAVAIR contracting personnel were unable to definitize contract N00019-09-C-0026,
with a NTE value of $52.6 million, within required time frames. NAVAIR contracting
personnel awarded the contract on December 23, 2008, for the Low-Rate Initial
Production of Advanced Anti-Radiation Guided Missiles. NAVAIR personnel met with
the contractor to conduct fact finding meetings and to agree on required proposal
adjustments to address congressional budget cuts. According to contracting personnel,
they received a qualifying proposal on March 10, 2009. The Defense Contract Audit
Agency subsequently qualified its audit report on the contractor’s March 2009 proposal
because the proposal lacked subcontractor audit reports. The contracting officer stated
that approximately five subcontractors were not audited due to proposal deficiencies.
Seven of the nine subcontractor and interagency proposals were subject to field pricing
assistance. According to the BCM, the Defense Contract Audit Agency completed audits
or rate verifications on four subcontractor proposals. As a result, NAVAIR contracting
personnel definitized the UCA 204 days after the receipt of a qualifying proposal.

Changes in Government Requirements
       NAVAIR contracting personnel had to address Government personnel’s updated
requirements after UCA issuance, which contributed to the late definitization of five
UCAs. After issuing a UCA, contracting personnel have little control over changing
requirements. The contractor had to prepare or revise a proposal that contracting
personnel had to review after each significant change to the requirements occurred.
Personnel should better coordinate between NAVAIR departments to identify changes in
Government requirements as soon as practicable and should document changes in the
contract file.




                                            15

Contract N00019-05-C-0030, Modification PU0001
NAVAIR contracting personnel were unable to definitize contract N00019-05-C-0030,
modification PU0001, with a NTE value of $27.1 million, within required time frames.
NAVAIR contracting personnel awarded the UCA on August 28, 2006, after receiving
the contractor’s qualifying proposal for the design, fabrication, delivery, installation, and
testing of a systems integration laboratory for the VH-71 program. According to the
BCM, NAVAIR personnel and the contractor met multiple times to revise the
configuration of the laboratory that changed the scope of the UCA. On December 7,
2006, NAVAIR contracting personnel sent an updated request for proposal to the
contractor who subsequently responded with a proposal on January 18, 2007. The
contractor submitted a revised proposal on March 13, 2007, and the UCA was
subsequently definitized on July 9, 2007. As a result, contracting personnel definitized
the UCA 315 days after award.

Contract N00019-09-D-0015
NAVAIR contracting personnel were unable to definitize contract N00019-09-D-0015,
with a NTE value of $18.7 million, within required time frames. NAVAIR contracting
personnel awarded the contract on December 30, 2008, for services and support to
maintain the C/KC-130 aircraft. NAVAIR personnel were refining requirements after
award for contract N00019-09-D-0015 to modify the previous commercial contract to be
a contract-by-negotiation contract, according to contracting personnel. NAVAIR legal
and contracting personnel met several times to revise the contract, which resulted in two
revisions to the request for proposal and performance work statements. Contracting
personnel also cited extended negotiations with the contractor and staff turnover of both
the contractor and Government contracting personnel as contributing factors for late
definitization. As a result, NAVAIR contracting personnel definitized the UCA on
April 1, 2010, 426 days after receiving the contractor’s January 30, 2009, qualifying
proposal.

Pricing Delays
        NAVAIR contracting personnel experienced pricing delays, which contributed to
the late definitization of eight UCAs. Contractors had to prepare and certify enormous
amounts of cost or pricing data before definitization or altered the pricing of the proposal,
which required additional Government review. Specifically, contractors updated or
rescinded forward pricing rate agreements that were in place with the Defense Contract
Management Agency during the undefinitized period or provided updated actual costs
incurred that significantly changed the proposal price. NAVAIR contracting personnel
also delayed negotiations to jointly definitize two UCAs that enabled the contractor to
obtain better sub-vendor pricing for increased quantity.

Contract N00019-07-G-0008, Delivery Order 0071
NAVAIR contracting personnel were unable to definitize contract N00019-07-G-0008,
delivery order 0071, with a NTE value of $61.6 million, within required time frames.
NAVAIR contracting personnel awarded the UCA on March 31, 2009, to support the
retrofit of fielded V-22 aircraft with upgraded Ice Protection Systems. The contractor
used the current April 2009, forward pricing rate agreement and submitted a qualifying


                                             16

proposal on June 17, 2009. The contracting officer stated that the contractor withdrew
from the agreement due to changes in its cost accounting system and disclosure
statements. The contracting officer stated that negotiations were impacted because
contracting personnel not only had to negotiate differences in direct inputs, such as for
hours and materials, but also significant differences in rates. NAVAIR contracting
personnel were required to update the negotiation position to reflect the Defense Contract
Management Agency’s December 16, 2009, forward pricing rate recommendation. The
contracting officer also attributed late definitization to the program office’s delayed
release of its technical evaluation. As a result, NAVAIR contracting personnel
definitized the UCA 252 days after receiving a qualifying proposal.

Contract N00019-07-C-0041, Modifications P00008 and P00013
NAVAIR contracting personnel were unable to definitize the two UCAs established in
modifications P00008 and P00013 on contract N00019-07-C-0041 within required time
frames. Contracting personnel awarded the respective UCAs on September 11, 2008,
with a NTE value of $32.9 million, and on February 4, 2009, with a NTE value of
$40 million. Contracting personnel awarded both UCAs after receiving a qualifying
proposal to procure critical components and ancillary equipment to support the
production of Lot 2 and Lot 3 Vertical Takeoff and Landing Tactical Unmanned Aerial
Vehicles. The contracting officer stated that pricing the procurement was difficult
because historical costs were not available. An opportunity arose for contracting
personnel to definitize Lot 2 and Lot 3 production efforts together, which enabled the
contractor to obtain better pricing from sub-vendors for increased quantity. Defense
Contract Audit Agency personnel provided updated rate verifications to account for the
amount of time that had passed between their audits for Lot 2 and 3 and the updated
proposals. As a result, NAVAIR contracting personnel definitized the Lot 2 UCA issued
on modification P00008 376 days after award and definitized the Lot 3 UCA issued on
modification P00013 230 days after award.

Extended Negotiations
       NAVAIR contracting personnel extended negotiations with the contractor that
contributed to the late definitization of six UCAs. Contractors were slow to submit
counteroffers and disagreed with Government personnel on contract terms, cost
reasonableness, and profit. In addition, NAVAIR contracting personnel and the
contractor negotiated additional contract terms and prices beyond those included in the
UCA.

Contract N00019-04-C-0015
NAVAIR contracting personnel were unable to definitize contract N00019-04-C-0015,
with an initial NTE value of $25.8 million, within required time frames. NAVAIR
contracting personnel awarded the UCA on February 17, 2004, for initial activities to
support the build and delivery of advanced mission computers and multi-purpose displays
for F/A-18E/F Lot 28 aircraft. The definitized contract included priced options for
Lot 29. The contractor submitted a qualifying proposal for Lot 28 on May 28, 2004, and
for Lot 29 on August 31, 2004. Approximately 2 months later, contracting personnel
delayed the Lot 28 definitization to account for lengthy sub-vendor negotiations and


                                           17

updated prime proposal pricing. Contracting personnel increased the UCA’s scope on
October 27, 2004, to include production at a revised NTE amount of $62.7 million.
Government and contractor personnel began Lot 28 negotiations in November 2004, but
did not conclude negotiations until February 2005. Contracting personnel subsequently
issued a UCA for Lot 29 on January 31, 2005. Contracting personnel also cited
contractor proposal issues as a contributing factor for late definitization. As a result,
NAVAIR contracting personnel definitized the Lot 28 UCA 294 days after receiving a
qualifying proposal and definitized the Lot 29 UCA 46 days after award.

Contract N00019-04-C-0014, Modification P00149
NAVAIR contracting personnel were unable to definitize contract N00019-04-C-0014,
modification P00149, with a NTE value of $171.9 million, within required time frames.
NAVAIR contracting personnel awarded the UCA after receipt of a qualifying proposal
on September 26, 2007, for supplemental Lot 32 F/A-18F aircraft. The contractor
analyzed its cost and pricing data before the start of negotiations, which resulted in
several major changes to the proposal pricing. Government and contractor personnel
began negotiations on February 25, 2008. The negotiations were for the definitization of
the UCA and for requirements unrelated to the UCA being obtained under the contract.
No significant changes to the contract terms or conditions occurred during negotiations;
however, offers were exchanged until May 22, 2008, when the contractor accepted the
Government’s final offer. Contractor pricing delays were also a contributing factor for
late definitization, according to contracting personnel. As a result, NAVAIR contracting
personnel definitized the UCA on July 25, 2008, 303 days after award.

Other Impacts on Definitization Time Frames
       NAVAIR contracting personnel were unable to definitize seven UCAs in a timely
manner and cited issues with untimely Defense Contract Management Agency and
Defense Contract Audit Agency response times, the partial sale of a contractor’s
business, and NAVAIR administration delays. Administration delays included the
program office’s delay in releasing a technical evaluation and the time required for the
contracting office to prepare definitization documentation for multiple UCAs. Of the
29 UCAs that exceeded the time limits, 1 remains undefinitized6 as of May 24, 2011.

Contract N00019-07-C-0057
NAVAIR contracting personnel were unable to definitize contract N00019-07-C-0057,
with a NTE value of $52.5 million, within required time frames. NAVAIR contracting
personnel awarded the UCA on August 22, 2007, to procure low-rate initial production of
AN/ALQ Low-Band Transmitters, spare and repair parts, and nonrecurring engineering
for the processor card upgrades on the EA-6B aircraft. Personnel from NAVAIR,
Defense Contract Audit Agency, and the Defense Contract Management Agency began
Alpha negotiation sessions with the contractor from late September 2007 through early
March 2008. The Defense Contract Audit Agency issued its audit report on March 19,
2008, about 4 months after NAVAIR received the qualifying proposal. Additional Alpha


6
    One UCA was in the process of being terminated as of May 24, 2011.


                                                    18

negotiations were held in May 2008. The contracting officer stated that negotiations
were extended because of a disagreement with the contractor about the use of one of the
learning curves. In addition, the original contractor sold the part of its business that was
awarded the UCA on February 22, 2008. The buying company submitted its rate
proposal package on April 4, 2008, and submitted a revised forward pricing rate
submission on June 3, 2008. As a result, NAVAIR contracting personnel definitized the
UCA 229 days after receiving a qualifying proposal.

Contract N00019-05-D-0013, Delivery Order 0029, Modification 01 and
Delivery Order 0030, Modification 01
NAVAIR contracting personnel were unable to definitize contract N00019-05-D-0013,
delivery order 0029, modification 01, and delivery order 0030, modification 01, each
with a NTE value of $2.4 million, within required time frames. In total, NAVAIR
contracting personnel awarded five UCAs on contract N00019-05-D-0013 to revise the
installation of Special Structural Inspections-Kits on P-3 aircraft. NAVAIR contracting
personnel awarded the two respective UCAs on November 25, 2008, and December 5,
2008, as the first two of the five UCAs. Contracting personnel awarded the fifth UCA on
February 13, 2009, and concluded negotiations for all five UCAs on May 1, 2009.
Contracting personnel had to prepare the post-negotiation BCM documentation and
approval, funding receipts, and draft and execute five separate delivery order
modifications and a bilateral basic contract modification prior to the June 11, 2009,
definitization. As a result, NAVAIR contracting personnel definitized the first UCA
issued on delivery order 0029, modification 01, 198 days after award and definitized the
second UCA issued on delivery order 0030, modification 01, 188 days after award.

NAVAIR Generally Complied With Requirements to
Reflect the Undefinitized Period on Allowable Profit
NAVAIR contracting personnel did not include sufficient support in the BCM that would
allow an independent party to determine the basis for their profit determination for 5 of
41 UCAs reviewed.7 NAVAIR contracting personnel were required to use the weighted
guidelines method to develop a profit objective for 41 of the UCAs and used a Web-
based tool to apply the method for 38 of the UCAs. On October 8, 2008, NAVAIR
contracting personnel were directed to use the Web-based weighted guidelines
application to analyze profit. However, the Web-based tool’s output, DD Form 1547,
“Record of Weighted Guidelines Application,” was inadequate as sole support for profit
determination because it did not clearly document how the undefinitized period was
reflected in the contractor’s profit or fee.




7
  Ten of the UCAs were excluded from our review to determine if the contractor’s possible reduced cost
risk was reflected in the allowable profit because the contract type was cost-plus-award-fee (5) and
obtaining cost and pricing data for commercial contracts is prohibited (5); therefore, use of the weighted
guidelines was not required. In addition, one UCA was in the process of being terminated as of May 24,
2011.


                                                     19

The DD Form 1547 was inadequate because it did not clearly document the:
    extent to which costs were incurred before definitization,
    risk factors assigned to the incurred cost and the projected cost when the weighted
      guidelines application was used, and
    resulting impact on the contractor’s profit or fee.

As a result, NAVAIR contracting personnel must document the risk assessment in the
contract file. However, discussions in the BCMs on NAVAIR contracting personnel’s
profit determination were insufficient to adequately document the extent to which costs
were incurred before definitization or did not contain adequate documentation that
supported how the undefinitized period was reflected in the contractor’s profit or fee for
five UCAs. During the undefinitized period, the Government bears increased risk, and
the contractor generally bears reduced risk. The Government could be paying too much
profit to the contractor if the contractor’s reduced risk is not reflected in the negotiated
profit rate.

Requirements to Reflect Reduced Cost Risk in the Contractor’s
Profit or Fee
       Both 10 U.S.C. § 2326 and the DFARS provide guidance on profit determination.
Section 2326(e), title 10, United States Code, states:

           The head of an agency shall ensure that the profit allowed on an
           undefinitized contractual action for which the final price is negotiated after
           a substantial portion of the performance required is completed reflects—

               (1) the possible reduced cost risk of the contractor with respect to costs
               incurred during performance of the contract before the final price is
               negotiated; and

               (2) the reduced cost risk of the contractor with respect to costs incurred
               during performance of the remaining portion of the contract.

DFARS 215.404-4, “Profit,” requires that contracting officers use a structured approach
for developing a prenegotiation profit or fee objective on any negotiated contract action
when the contractor provides cost or pricing data, except for cost-plus-award-fee
contracts or contracts with Federally Funded Research and Development Centers.
DFARS 215.404-4 further states that the weighted guidelines method is the structured
approach that must be used, with certain limited exceptions. Federal Acquisition
Regulation (FAR) 15.406-3, “Documenting the Negotiation,” states that the contracting
officer must document in the contract file the basis for the prenegotiation profit or fee
objective and the profit or fee negotiated.

DD Form 1547 Provided Inadequate Support of Profit
Determination
       NAVAIR contracting personnel used DD Form 1547 as support for profit
determinations. However, the form did not provide sufficient detail as sole support that
the undefinitized period was a consideration in profit determination. The weighted


                                                  20

guidelines application considered incurred cost, the undefinitized period, and the
remaining portion of the contract to develop a profit objective. The contracting officer
entered the incurred and projected costs into the application and assigned values to the
contract risk factors. The application then produced a composite contract type risk factor
shown in box 24 of DD Form 1547. The contract type risk factor focuses on the degree
of risk accepted by the contractor under varying contract types. The weighted guidelines
application then generated a total profit objective for the contract based on different risk
factors entered by the contracting officer and the composite contract type risk factor
generated by the application. The contracting officer should have used the profit
objective as the Government’s basis for negotiations with the contractor.

However, DD Form 1547 did not display all of the factors entered by the contracting
officer. The form identified the composite contract type risk factor, but did not state the
extent to which costs were incurred before definitization, the different values assigned to
the incurred cost and projected cost, or the resulting impact on the contractor’s profit or
fee. As a result, it was not possible for an independent party to determine how the
contracting officer considered the contractor’s possible reduced cost risk unless the
contracting officer documented the risk assessment in the contract file. Furthermore, an
independent party cannot determine that the level of reduction taken to address the
undefinitized period accurately reflected the extent of actual costs incurred if contracting
officers do not state the amount of actual costs incurred in the risk assessment.
Contracting personnel should document the costs incurred before definitization and their
impact on profit determination in the BCM. Both the GAO and DoD IG recommended in
previous reports that DoD revise the DFARS to include instructions on how to perform
an assessment of any reduced cost risk on profit or fee during the undefinitized period.8

Documented Consideration of Reduced Contractor Risk in the
BCM
        We could not determine compliance with 10 U.S.C. § 2326(e) for 5 of the
41 UCAs because NAVAIR contracting personnel did not adequately document their
consideration of reduced contractor risk and the overall effect on the profit objective in
the BCM. Contracting personnel acknowledged in four of the five BCMs the
requirement to consider reduced cost risk to the contractor; however, contracting
personnel did not document in any of the five BCMs that a reduction to the profit
objective was taken to account for the decreased risk or provide other rationale as to why
profit was not reduced. Contracting personnel used DD Form 1547 as support for the
profit determination for four of the five UCAs. However, neither the four DD Form
1547s nor the five BCMs stated the amount of actual costs incurred before definitization,
the risk factors the contracting officer assigned to the incurred cost and projected cost, or
the resulting impact on the contractor’s profit or fee. NAVAIR contracting personnel
adequately documented compliance with 10 U.S.C. § 2326(e) in 36 of the 41 BCMs
reviewed. Contracting personnel documented their overall consideration of reduced risk

8
 GAO Report No. GAO-10-299, “DoD Has Enhanced Insight into Undefinitized Contract Action Use, but
Management at Local Commands Needs Improvements,” January 28, 2010; and DoD IG Report No. D­
2004-112, “Undefinitized Contractual Actions,” August 30, 2004.


                                               21

and the resulting reduction to the prenegotiation profit or fee objectives in the BCM for
29 UCAs. In the remaining seven BCMs, contracting personnel documented their overall
consideration of reduced risk and provided their rationale why an adjustment to profit
was not warranted.

NAVAIR contracting personnel used DD Form 1547 as support for the profit
determination for 38 of the 41 UCAs that required the use of the weighted guidelines
method to develop the profit objective. However, the form did not state the amount of
actual costs incurred before definitization, the risk factors the contracting officer assigned
to the incurred cost and projected cost, or the resulting impact on the contractor’s profit
or fee. Contracting personnel did not document the extent of costs incurred in the BCMs
for 14 of the 38 UCAs analyzed with weighted guidelines. DFARS 215.404-71-3
requires contracting officers to assess the extent to which costs have been incurred before
definitization and to regard the contract type risk to be in the low end of the designated
range when costs have been incurred. Although contracting personnel did not state the
extent to which costs were incurred, in 10 of these instances, we considered the
discussions in the BCM sufficient to determine the overall effect the undefinitized period
had on the profit objective. For example, NAVAIR contracting personnel prepared the
BCM for contract N00019-05-C-0011 that adequately documented the contracting
officer’s consideration of the undefinitized period, but did not document the amount of
actual costs incurred. We considered the documentation to be in compliance with
10 U.S.C. § 2326(e) because contracting personnel reduced the contract type risk used in
the weighted guidelines application to reflect the reduced risk during the undefinitized
period.

NAVAIR Contracts Competency Instruction 4200.30H, “Business Clearance
Memorandum (BCM) Review and Approval Process,” June 16, 2008, provides
standardized policies and procedures for BCMs. The Instruction requires contracting
personnel to attach the DD Form 1547 to the prenegotiation BCM and to document the
structured approach used in developing the negotiation objective. The Instruction
also requires contracting personnel to address the reduced cost risk associated with the
cost incurred before negotiation of the final price and the reduced cost risk for the
remainder of the contract when definitizing a UCA. NAVAIR Instruction 4200.33D
states that when the final price of a UCA is negotiated after a substantial portion of the
performance has been completed, the profit analysis in the BCM and the weighted
guidelines must document reduced cost risk in the assignment of allowable profit factors
in establishing negotiation objectives for the final price. NAVAIR officials should revise
local Instructions to require contracting personnel to document within the profit section
of the BCM their consideration of reduced risk on the contractor’s profit or fee, the
impact of the undefinitized period on the profit or fee, and the inputs used to develop the
contract type risk.

Adequate and Inadequate Documentation of Profit Determination
in the BCM
       We reviewed the BCM for each of the 41 UCAs to determine whether the
contracting officer’s consideration of the undefinitized period and its effect on the


                                             22

contractor’s profit was adequately documented. The following two UCAs are examples
of adequate and inadequate documentation of profit determination.

Contract N00019-05-D-0013, Delivery Order 0042
NAVAIR contracting personnel prepared the BCM for contract N00019-05-D-0013,
delivery order 0042, that adequately documented the contracting officer’s consideration
of the undefinitized period and its effect on the contractor’s profit. Contracting personnel
properly identified the amount of costs incurred before definitization, their effect on the
contract type risk used in the weighted guidelines application, and the profit objective
generated based on the incurred cost and the remaining portion of the contract.
Specifically, NAVAIR contracting personnel stated in the BCM that the contract type
risk value used in the weighted guidelines application was reduced because 29 percent of
the effort was completed during the undefinitized period. The contracting officer
assigned two separate contract type risk values — one for actual costs incurred
(0 percent) and one for estimated costs to complete (0.5 percent). This resulted in a lower
composite risk value of 0.35 percent and accounted for the reduced risk associated with
the UCA.

Contract N00019-07-G-0008, Delivery Order 1000
NAVAIR contracting personnel prepared the BCM for contract N00019-07-G-0008,
delivery order 1000, that did not adequately document the contracting officer’s
consideration of the undefinitized period’s effect on the contractor’s profit. Contracting
personnel acknowledged that there was a requirement to consider reduced cost risk to the
contractor during the undefinitized period, but did not document their consideration of
reduced risk in the contract file. Contracting personnel stated in the BCM that the
Government used the weighted guidelines to calculate the profit objective, but did not
include a discussion of contract type risk in the BCM or provide any indication of actual
costs incurred. Compliance with 10 U.S.C. § 2326(e) cannot be determined for this UCA
because NAVAIR contracting personnel did not document their consideration of the
undefinitized period and its effect on the contractor’s profit.

Enhanced Reporting Requirement
       In June 2007, GAO issued Report No. GAO-07-559, “Defense Contracting: Use
of Undefinitized Contract Actions Understated and Definitization Time Frames Often
Not Met,” which criticized DoD for inadequately documenting the impact of costs
incurred before definitization on profit and fee rates. In response to the report, the
Director, Defense Procurement, Acquisition Policy, and Strategic Sourcing, issued a
memorandum on August 29, 2008, that provided guidance to contracting officers
regarding the requirements contained in DFARS 215.404-71, which advocates the
lowering of contract type risk based on the amount of costs incurred before definitization.
The August 2008 DPAP memorandum required contracting officers to document the risk
assessment in the contract file. See Appendix B for a copy of the memorandum. Of the
41 UCAs that we reviewed for profit determination, 24 were definitized after the August
2008 DPAP memorandum. All 24 UCAs were in compliance with the August 2008
DPAP memorandum requirement to document the risk assessment in the contract file;
therefore, we are not making a recommendation on this requirement.


                                            23

NAVAIR Generally Funded UCAs Within Obligation
Limitations
NAVAIR contracting personnel exceeded the limitations for obligating funds for 3 of the
51 definitized UCAs. Contracting officers are limited by 10 U.S.C. § 2326 in the amount
of funds they may obligate for a UCA to 50 percent of the NTE value before receipt of a
qualifying proposal and to 75 percent after receipt of a qualifying proposal. Exceeding
the allowable obligation thresholds puts the Government in a weakened position to
negotiate a contract at definitization because contractors are less inclined to submit a
qualifying proposal when there is adequate funding available to continue the work.

Section 2326(b)(2) and (3), title 10, United States Code, states:
               (2) Except as provided in paragraph (3), the contracting officer for an
               undefinitized contractual action may not obligate with respect to such
               contractual action an amount that is equal to more than 50 percent of
               the negotiated overall ceiling price until the contractual terms,
               specifications, and price are definitized for such contractual action.

               (3) If a contractor submits a qualifying proposal (as defined in
               subsection (g)) to definitize an undefinitized contractual action before
               an amount equal to more than 50 percent of the negotiated overall
               ceiling price is obligated on such action, the contracting officer for such
               action may not obligate with respect to such contractual action an
               amount that is equal to more than 75 percent of the negotiated overall
               ceiling price until the contractual terms, specifications, and price are
               definitized for such contractual action.

Section 2326(g)(2), title 10, United States Code, states:

               The term “qualifying proposal” means a proposal that contains
               sufficient information to enable the Department of Defense to conduct
               complete and meaningful audits of the information contained in the
               proposal and of any other information that the Department is entitled to
               review in connection with the contract, as determined by the
               contracting officer.

NAVAIR contracting personnel obligated funds in excess of allowable amounts for
three UCAs because they obligated too much funding at UCA issuance and did not
adequately adjust the NTE amount to properly reflect the new obligation amount. In one
of the three instances, contracting personnel obligated funding in excess of the allowable
amount by less than one percent. The following two UCAs are examples of NAVAIR
contracting personnel not adhering to the obligation limitations established by
10 U.S.C. § 2326. These instances are not indicative of a NAVAIR-wide problem with
the obligation of funding for UCAs; therefore, we are not making a recommendation on
this issue.

Contract N00019-09-C-0026
       NAVAIR contracting personnel inappropriately obligated 67 percent of the NTE
value before receipt of a qualified proposal for the UCA awarded on contract


                                                  24

N00019-09-C-0026. Contracting personnel issued the UCA on December 23, 2008, to
obtain Low-Rate Initial Production of Advanced Anti-Radiation Guided Missiles.
NAVAIR contracting personnel initially obligated funding for the UCA at 67 percent of
the NTE value before receipt of the contractor’s qualifying proposal, violating the
50 percent threshold limitation established in 10 U.S.C. § 2326.

Contract N00019-04-C-0028, Modification P00036
        NAVAIR contracting personnel inappropriately obligated 84.75 percent of the
$8.4 million NTE value before definitization for the UCA awarded on contract N00019­
04-C-0028, modification P00036. Contracting personnel awarded the UCA on July 20,
2007, after receiving a qualifying proposal. This proposal included efforts beyond those
executed under the subject UCA that were to be performed under three additional
contracts. The subject action was to begin the procurement and installation of
components that would provide improved capability for the MH-60R and MH-60S
Common Cockpit. Contracting personnel inappropriately treated the subject UCA, and
the three additional UCAs awarded on separate contracts as one action for obligation and
tracking purposes for a procurement under the program. When funding the FY 2008
portion of the procurement, NAVAIR contracting personnel decreased the NTE value of
the subject UCA to $8.3 million and increased the obligated funds to $7 million.
Contracting personnel’s FY 2008 modification resulted in obligations for the UCA
9.75 percent above the 75 percent limitation when properly calculated as an individual
action. Funded obligations remained below the maximum amount allowable when
contracting personnel improperly tracked obligations for the procurement as a whole.

Inconsistent Obligation of Funds for UCA Requirements
NAVAIR contracting personnel obligated funding at or near the maximum amount
permissible9 at issuance for 35 of 52 UCAs. The August 2008 DPAP memorandum
instructed contracting officers to assess the contractor’s spend plan for the undefinitized
period and obligate funding in an amount consistent with the contractor’s requirements
for the undefinitized period. Both before and after DPAP issued the memorandum,
NAVAIR contracting personnel commonly funded UCAs to the maximum amount
allowable. NAVAIR contracting personnel obligated funds at or near the maximum
amount allowable for 22 of 30 UCAs that were issued before the August 2008 DPAP
memorandum and for 13 of 22 UCAs that were issued after the August 2008 DPAP
memorandum. Figure 2 shows the number of UCAs obligated at the maximum amounts
at issuance before and after the August 2008 DPAP memorandum.




9
 We considered funding obligated within 5 percent of the maximum amount permissible (50 percent or
75 percent) to be at or near the maximum amount.


                                                 25

 Figure 2. UCAs Obligated at Maximum Allowable Amounts* Before Definitization
             Before and After the August 2008 DPAP Memorandum

                           25
          Number of UCAs                           22
                           20
                                                                                            13
                           15
                                     8                                       9
                           10
                            5
                            0
                                Before DPAP memorandum                 After DPAP memorandum
                                   Funded less than the maximum amount allowable
                                   Funded at, near, or above the maximum amount allowable



* We considered funding obligated within 5 percent of the maximum permissible to be at or near the
maximum amount. Although funding may have been obligated at or near the maximum amount allowable,
funding may have been in accordance with the contractor’s proposed requirements.

NAVAIR contracting personnel did not take steps to comply with the August 2008 DPAP
memorandum requirement to avoid obligating the maximum permissible funding at
contract award. Contracting personnel did not obligate funds in accordance with
requirements outlined in the August 2008 DPAP memorandum for 7 of the 13 UCAs.
Contracting personnel did not provide documentation to show that funding was in
accordance with proposed requirements for five UCAs and funded two UCAs in an
amount that was not consistent with the contractor’s proposed requirements for the
undefinitized period. However, contracting personnel obligated funds in accordance with
the contractor’s proposed requirements when issuing 6 of the 13 UCAs that were funded
to the maximum amount allowable.

The contracting officer can strengthen the Government’s negotiation position by limiting
funding to incremental amounts to help obtain a timely definitization. NAVAIR
contracting personnel should take steps to comply with the August 2008 DPAP
memorandum requirement by obligating funding according to the contractor’s
requirements rather than to the maximum amount permissible. Further, contracting
officers should avoid obligating the maximum allowable funding amount at the time of
UCA award to discourage extended periods of performance before definitization.

NAVAIR Adequately Documented Fair and Reasonable
Pricing
NAVAIR contracting personnel adequately documented their determination of price
reasonableness for all 51 definitized UCAs, with the exception of documenting the
determination of profit as discussed in the report. FAR 15.403-3, “Requiring information
other than cost or pricing data,” requires that the contracting officer obtain information


                                                           26

that is adequate for evaluating price reasonableness. Further, FAR 15.406-3,
“Documenting the negotiation,” states that the contracting officer must document fair and
reasonable price in the contract file.

We reviewed the contract files for the 51 definitized UCAs and determined that the files
contained adequate documentation to support the contracting officer’s determination of a
fair and reasonable price. NAVAIR contracting personnel prepared pre- and post-
negotiation BCMs to document NAVAIR personnel’s prenegotiation position and the
result of negotiations with the contractor. Contractors submitted certificates of current
cost or pricing data to NAVAIR contracting personnel, certifying that to the best of their
knowledge the data were accurate and complete as of the date included in the certificate.
NAVAIR contracting personnel also requested the assistance of the Defense Contract
Audit Agency and the Defense Contract Management Agency to perform audits and
reviews of contractor proposals and applicable rates.

NAVAIR contracting personnel adequately documented their determination of fair and
reasonable prices. FAR 15.404-4, “Profit,” states that the contracting officer’s signature
on the BCM documents the contracting officer’s determination that the statutory price or
fee limitations have not been exceeded. Contracting officers provided signed BCMs for
all but 1 of 51 UCAs.

According to the BCMs, contracting officers evaluated contractor proposals to determine
that negotiated amounts were fair and reasonable. Table 4 lists the types of support
contracting officers relied on when determining price reasonableness.
     Table 4. Documentation to Support Determination of Price Reasonableness

          Contractor Proposal Evaluated Against                 Number of BCMs That
                                                                 Identified Evaluation
 Defense Contract Audit Agency audits or Defense                           44
 Contract Management Agency reviews
 Technical evaluations                                                     49
 Forward pricing rate agreements or forward pricing rate                   47
 recommendations
 Certificate of current cost or pricing data                               43

NAVAIR contracting personnel referenced compliance with FAR 15.403-4, “Requiring
Cost or Pricing Data,” which outlines requirements for obtaining current cost or pricing
data in the BCMs for the 51 definitized UCAs. For 43 of 51 UCAs, the BCMs state that
the contractors provided a certificate of current cost or pricing data. FAR 15.403-1 (b)(3)
prohibits cost and pricing data when a commercial item is being acquired. Of the 51
definitized UCAs, 5 were identified as commercial items and did not require certificates
of current cost or pricing data. The final three UCAs did not require certificates of
current cost or pricing data because the definitized prices were lower than the
$650,000 cost or pricing data threshold.



                                            27

Conclusion
NAVAIR contracting personnel adhered to the limitations on the obligations of funds
with three exceptions and adequately documented their determination of price
reasonableness. However, we identified 55 deficiencies in the 52 UCAs we reviewed in
which NAVAIR personnel did not fully comply with 10 U.S.C. § 2326 UCA restrictions
and DoD requirements. NAVAIR personnel prepared inadequate authorization requests
to issue UCAs, inadequately justified the issuance of UCAs, did not definitize UCAs in a
timely manner, inadequately supported all required elements of profit determination in
the BCM, and did not obligate funds in accordance with requirements outlined in the
DPAP memorandum. As a result, the Navy assumed increased risk in the price
negotiation process, and delays in definitizing contracts may have increased the cost risk
to the Government. Incorporating the following recommendations should reduce the
number of noncompliant actions.

Management Comments on the Finding
The Deputy Assistant Commander for Contracts, NAVAIR, partially agreed with the
Finding. See Appendix F for a summary of the comments and our response.

Recommendations, Management Comments, and Our
Response
1. We recommend that the Commander, Naval Air Systems Command:

       a. Require that Naval Air System Command personnel better coordinate
between departments to identify changes in Government requirements as soon as
practicable and document changes in the contract file.

Naval Air Systems Command Comments
The Deputy Assistant Commander for Contracts, Naval Air Systems Command,
commented for the Commander. The Deputy Assistant Commander for Contracts
partially agreed and stated that Naval Air Systems Command currently has instructions
that require careful planning and requirements identification during the procurement
initiation process, as well as policies and procedures for urgent issues that cannot be
anticipated in advance. He stated that Naval Air Systems Command will issue a
“communiqué” by June 30, 2011, to remind personnel of the importance of planning,
identifying changing requirements as quickly as possible, and documenting changes in
the contract file. In addition, the Deputy Assistant Commander for Contracts stated that
Naval Air Systems Command will complete its draft of an update to Naval Air Systems
Command Instruction 4200.33D, “Undefinitized Contractual Actions,” to include a
requirement to clearly document changes to undefinitized contractual action requirements
in the contract file by July 30, 2011, with the goal of having the update approved and
finalized by October 30, 2011.




                                            28

Our Response
The comments from the Deputy Assistant Commander for Contracts, Naval Air Systems
Command, are responsive, and no additional comments are required.

      b. Update Naval Air Systems Command’s Instruction 4200.33D,
“Undefinitized Contract Actions,” to include guidance on how contracting personnel
can document their consideration of reduced risk to the contractor’s profit or fee
when definitizing undefinitized contractual actions.

Naval Air Systems Command Comments
The Deputy Assistant Commander for Contracts, Naval Air Systems Command,
commented for the Commander. The Deputy Assistant Commander for Contracts
partially agreed and stated that Naval Air Systems Command currently has instructions
that require documentation of the consideration of reduced risk to the contractor’s profit
or fee when definitizing undefinitized contractual actions. He stated that Naval Air
Systems Command will issue a “communiqué” by June 30, 2011, detailing the
requirements for contracting personnel to document their consideration of reduced risk.

Our Response
The comments from the Deputy Assistant Commander for Contracts, Naval Air Systems
Command, are responsive. The actions planned by the Deputy Assistant Commander for
Contracts to issue a “communiqué” detailing the requirements for contracting personnel
to document their consideration of reduced risk satisfy the intent of the recommendation.
Incorporating the guidance in the “communiqué” into future updates of the Naval Air
Systems Command’s Instruction 4200.33D will further improve contracting personnel’s
understanding of how to document their consideration. No additional comments are
required.

2. We recommend that the Assistant Commander for Contracts, Naval Air Systems
Command:

      a. Develop procedures to avoid issuing undefinitized contractual actions with
authorization requests that do not clearly:

             (1) State the need to begin performance before definitization and the
adverse impact on Navy requirements.

             (2) Justify why an undefinitized contractual action is necessary to
meet the Navy’s requirements.

Naval Air Systems Command Comments
The Deputy Assistant Commander for Contracts, Naval Air Systems Command,
commented for the Assistant Commander for Contracts. The Deputy Assistant
Commander for Contracts partially agreed and stated that the responsibility for
adequately documenting the urgency on the authorization request is with the program


                                            29

office personnel and is approved by the Program Executive Office. He stated that the
contracts competency department head provides the final approval to begin processing an
undefinitized contractual action as the contractual vehicle. He also stated that Naval Air
Systems Command will issue a “communiqué” by June 30, 2011, outlining the process
and substantive requirements for undefinitized contractual action authorization requests.
In addition, the Deputy Assistant Commander for Contracts stated that Naval Air
Systems Command will update the authorization request form to more clearly articulate
requirements. He added that Naval Air Systems Command will complete a draft by
July 30, 2011, with the goal of having the update approved and finalized by October 30,
2011.

Our Comments
The comments from the Deputy Assistant Commander for Contracts, Naval Air Systems
Command, are responsive, and no additional comments are required.

       b. Enforce Defense Federal Acquisition Regulation Supplement Subpart
217.74, “Undefinitized Contract Actions,” and Naval Air Systems Command’s
Instruction 4200.33D, “Undefinitized Contract Actions,” to suspend or reduce
payments to the contractor for untimely proposals.

Naval Air Systems Command Comments
The Deputy Assistant Commander for Contracts, Naval Air Systems Command,
commented for the Assistant Commander for Contracts. The Deputy Assistant
Commander for Contracts partially agreed and stated that although the recommendation
constitutes a valid means of incentivizing timely receipt of contractor proposals, the
decision is ultimately at the discretion of the contracting officer. He stated that Naval Air
Systems Command will issue a “communiqué” by June 30, 2011, as a reminder of this
possible measure.

Our Comments
The comments from the Deputy Assistant Commander for Contracts, Naval Air Systems
Command, are responsive, and no additional comments are required.

       c. Update Naval Air Systems Command Instruction 4200.30H, “Business
Clearance Memorandum (BCM) Review and Approval Process,” with requirements
for contracting personnel to include in the profit section of the business clearance
memorandum: incurred costs, contract type risk used for both the undefinitized
period and the remainder of the contract, and the impact of the undefinitized period
on the contractor’s profit or fee. In addition, include guidance for contracting
personnel to document and discuss the inputs made to the contract type risk portion
of the DD Form 1547, “Record of Weighted Guidelines Application.”

Naval Air Systems Command Comments
The Deputy Assistant Commander for Contracts, Naval Air Systems Command,
commented for the Assistant Commander for Contracts. The Deputy Assistant



                                             30

Commander for Contracts agreed and stated that by September 30, 2011, Naval Air
Systems Command personnel will update the template in Contracts Competency
Instruction 4200.30H with requirements for contracting personnel to include in the profit
section of the business clearance memorandum. The requirements include incurred costs,
contract type risk used for both the undefinitized period and the remainder of the
contract, and the impact of the undefinitized period on the contractor’s profit or fee. In
addition, the Deputy Assistant Commander for Contracts stated that the October 2009
changes to the weighted guidelines tool will ensure that contractor risk and profit are
adequately considered and documented.

Our Response
The comments from the Deputy Assistant Commander for Contracts, Naval Air Systems
Command, are responsive. The actions planned by the Deputy Assistant Commander for
Contracts to update the template in Contracts Competency Instruction 4200.30H satisfy
the intent of the recommendation. Incorporating the estimated costs to complete as an
additional requirement will ensure inputs to the DD Form 1547 that are used to determine
the composite contract type risk are thoroughly considered in the profit determination.
No additional comments are required.

       d. Require contracting personnel to avoid obligating funds to the maximum
amount allowable for all undefinitized contractual actions so that both users and
contractors have incentive to coordinate early and often about proposals,
contractual needs, and funding.

Naval Air Systems Command Comments
The Deputy Assistant Commander for Contracts, Naval Air Systems Command,
commented for the Assistant Commander for Contracts. The Deputy Assistant
Commander for Contracts agreed and stated that by June 30, 2011, Naval Air Systems
Command officials will re-emphasize existing guidance requiring supporting data, such
as spend plans, to justify the funds obligated on undefinitized contractual actions.

Our Response
Although the Deputy Assistant Commander for Contracts, Naval Air Systems Command,
agreed, the comments are not responsive. Existing local guidance permits obligating
funds to the maximum permissible at the issuance of an undefinitized contractual action
and does not encourage or require contracting personnel to consider the contractor’s
requirements during the undefinitized period when obligating funds. The August 2008
Defense Procurement Acquisition Policy memorandum requires contracting officers to
assess the contractor’s spend plan for the undefinitized period and to obligate funds only
in the amount needed for contractor’s requirements during that period, rather than to
obligate to the maximum permissible at issuance on an undefinitized contractual action.
Therefore, we ask that the Assistant Commander for Contracts provide additional
comments in response to the final report identifying specific actions that will require
contracting officers to consider the contractor’s spend plan for the undefinitized period
when obligating funds at issuance of an undefinitized contractual action.



                                            31

Appendix A. Scope and Methodology
We conducted this performance audit from March 2010 through March 2011 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives. We initially planned to review NAVAIR’s use
of UCAs as part of a tri-Service audit beginning in July 2009. In September 2009, we
decided to conduct a separate audit for each of the six contracting activities that we had
initially identified to be included in the tri-Service audit. In March 2011, DoD IG
management decided not to conduct the review of U.S. Army Communications-
Electronics Command UCA use because of staffing considerations and higher priority
work. As a result, the summary report will summarize five audit reports in the audit
series.

GAO was conducting a review on the use of UCAs when our audit began. We limited
our site selection to contracting offices that were not included in the GAO engagement.

Universe and Sample Information
We used the FPDS-NG database to identify a universe of UCAs to review. We identified
action obligations coded as letter contracts that the Navy issued during calendar years
2004 through 2008. In addition, we classified the action obligations by contract number
and contracting office code to identify the contracting offices that issued the 15 largest
aggregate UCA dollar values. We excluded two Navy contracting organizations from
consideration because GAO had an ongoing engagement with similar objectives at the
sites. We identified NAVAIR and the Marine Corps Systems Command for review. We
then conducted another search in FPDS-NG to identify “C” type letter contracts that
NAVAIR contracting personnel issued from the beginning of FY 2004 to the end of
FY 2009. The FPDS-NG universe consisted of 47 contracts. Contracting personnel
obligated approximately $1.1 billion during the fiscal year the 47 contracts were issued.
We downloaded 20 of the 47 contracts that were valued over $10 million in the
Electronic Document Access database to verify that the 20 contracts contained at least
one UCA and we eliminated contracts incorrectly coded as letter contracts or those that
were for Foreign Military Sales or congressionally mandated long-lead procurements.

NAVAIR personnel provided a list of all UCAs issued from FY 2004 through FY 2009
with a total NTE value of $5.1 billion. NAVAIR identified 74 contracts on its UCA
listing, which included contracts for foreign military sales or congressionally mandated
long-lead procurements not subject to 10 U.S.C. § 2326. We verified the list NAVAIR
provided against our list from FPDS-NG and found that 21 contracts we previously
identified were not on the NAVAIR listing. We previously downloaded 6 of the
21 contracts in the Electronic Document Access database and determined that the
contracts were required to comply with 10 U.S.C. § 2326.




                                            32

NAVAIR personnel subsequently explained how NAVAIR’s monthly UCA data
submissions and reporting ultimately affected the creation of their UCA listing provided
to us. Until mid 2008, NAVAIR tracked UCAs by the description of the UCA rather than
by contract number. In addition, NAVAIR does not have a comprehensive list of UCAs.
Instead, NAVAIR tracked UCAs on a month-by-month basis. As a result, NAVAIR
personnel reviewed each monthly UCA report from FY 2004 through FY 2009 and
extracted data to create the UCA list provided to us. When personnel compressed data
into a single entry for the UCA listing, contracts may have been inadvertently left out or
miscoded as a different contract or part of another contract. Based upon the FPDS-NG
data and the multiple NAVAIR UCA listings, we selected a nonstatistical sample of
30 contracts that included 62 UCAs for review. We selected higher dollar value contracts
within AIR-2.2, AIR-2.3, and AIR-2.4 while giving consideration to UCAs from each FY
within our scope and to the contracts we identified that were not on the NAVAIR UCA
listing.

Our audit universe was limited to the contracts identified in FPDS-NG as letter contracts.
Within FPDS-NG, we were unable to distinctively identify three types of UCAs:
“provisioned item orders,” “indefinite-delivery, indefinite-quantity,” and “basic ordering
agreements.” These types of UCAs are identified in a field the user or input staff
modifies and are subject to individual manipulations of the field that makes searching
across the database unreliable. We chose additional UCAs from incomplete lists
provided by NAVAIR personnel. Our final nonstatistical sample consisted of 52 UCAs:
24 UCAs on 16 letter contracts and 28 UCAs issued as modifications to 12 definitized
contracts.

Review of Documentation and Interviews
We downloaded and reviewed selected contracts and modifications from the Electronic
Document Access database and obtained and reviewed contract documentation from
NAVAIR. We then combined all of the data to perform an analysis to determine
compliance with 10 U.S.C. § 2326 and DoD requirements. We determined through
analyzing documentation and attending meetings whether the contracts underwent price
reasonableness determinations before their definitization. We also determined whether
NAVAIR personnel complied with August 2008 DPAP memorandum requirements that
contracting officers should avoid obligating the maximum permissible funding at the time
of UCA award.

We relied on interviews performed at the Office of Defense Procurement and Acquisition
Policy and the Office of the Deputy Assistant Secretary of the Navy (Research,
Development, and Acquisition) with audit team members for the main UCA project. We
interviewed contracting and procurement officials, covering award and definitization of
letter contracts and related management control programs from Naval Air Systems
Command Headquarters contracting offices.

We reviewed documentation maintained by NAVAIR contracting personnel to support
UCAs awarded or definitized from FY 2004 through FY 2009.



                                            33

We reviewed:
   UCA request and approval documentation,
   justification and approvals,
   statements of work,
   contractor proposals,
   contract modifications,
   business clearance memoranda, and
   Defense Contract Audit Agency reports or other audit support.

We evaluated documentation maintained by NAVAIR against applicable criteria
including:

   	 Statutes and Public Laws: Public Law 99-591, “Continuing Appropriations for
      Fiscal Year 1987”; Public Law 110-181, “National Defense Authorization Act for
      Fiscal Year 2008”; 10 U.S.C. § 2304, “Contracts: Competition Requirements”;
      10 U.S.C. § 2326, “Undefinitized Contractual Actions: Restrictions”;

   	 Federal Acquisition Regulation Requirements: FAR Subpart 6.3, “Other than Full
      and Open Competition”; FAR Subpart 15.4, “Contract Pricing”; FAR
      Subpart 16.6, “Time-and-Materials, Labor-Hour, and Letter Contracts”; FAR
      Subpart 52.2, “Text of Provisions and Clauses”;

   	 Defense Federal Acquisition Regulation Supplement: DFARS 215.404, “Proposal
      Analysis”; DFARS Subpart 216.6, “Time-and-Materials, Labor Hour, and Letter
      Contracts”; DFARS Subpart 217.74, “Undefinitized Contract Actions”;

   	 Navy Marine Corps Federal Acquisition Regulation Supplement: Navy Marine
      Corps Federal Acquisition Regulation Supplement Subpart 5217.74,
      “Undefinitized Contract Actions”;

   	 Memoranda: Office of the Under Secretary of Defense for Acquisition,
      Technology, and Logistics memorandum, “Management Oversight of
      Undefinitized Contract Actions,” August 29, 2008; the Department of the Navy
      Office of the Assistant Secretary Navy (Research, Development, and Acquisition)
      Memorandum, “Management Oversight of Undefinitized Contract Actions,”
      October 20, 2008; and

   	 Local Guidance: NAVAIR Instruction 4200.33C, “Undefinitized Contract
      Actions,” April 14, 2000; NAVAIR ltr 4200 Ser AIR-2.1.1.1/089 “Head of
      Contracting Activity (HCA) Delegation of Authority,” July 17, 2003; Policy and
      Procedures Memorandum, “Head of Contracting Activity (HCA) Delegation of
      Authority,” May 18, 2006; Contracts Competency Instruction 4200.30G,
      “Business Clearance Memorandum (BCM) Review and Approval Process,”
      August 23, 2006; Contracts Competency Instruction 4200.30H, “Business
      Clearance Memorandum (BCM) Review and Approval Process,” June 16, 2008;
      NAVAIR Instruction 4200.33D, “Undefinitized Contract Actions,” July 2, 2009;


                                         34

       Contracts Competency Instruction (CCI) 4200.59, “Head of Contracting Activity
       (HCA) Delegation of Authority,” February 12, 2010.

Use of Computer-Processed Data
We relied on computer-processed data from FDPS-NG to determine the contracting
organizations to visit and to perform the audit nonstatistical sample selection. We also
used the Electronic Document Access database to obtain contract documentation. The
data were not a basis for our conclusions or finding. To assess the accuracy of computer-
processed data, we verified the FPDS-NG and Electronic Document Access data against
official records at visited contracting activities. We determined that data obtained
through FPDS-NG and the Electronic Document Access database were sufficiently
reliable to accomplish our audit objectives when compared with contract records.

Use of Technical Assistance
We relied on interviews conducted by our team members for the main UCA project. We
interviewed personnel from the DoD IG Quantitative Methods and Analysis Division.
We determined that we would use FPDS-NG data to select a nonstatistical sample of
contracting activities and then we would use FPDS-NG data in combination with contract
data provided by the contracting activity to select a nonstatistical sample of UCAs to
review. Our nonstatistical sample was limited to specific contracts, and our results
should not be projected across other NAVAIR-issued contracts or Navy-issued contracts.

Prior Coverage
During the last 7 years, GAO has issued two reports discussing DoD use of UCAs and
two reports discussing audit issues within Defense Contract Audit Agency. During the
last 7 years, the DoD IG has issued four reports discussing DoD use of UCAs and one
report discussing audit issues within Defense Contract Audit Agency. Unrestricted GAO
reports can be accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG
reports can be accessed at http://www.dodig.mil/audit/reports.

GAO
GAO Report No. GAO-10-299, “Defense Contracting: DoD Has Enhanced Insight into
Undefinitized Contract Action Use, but Management at Local Commands Needs
Improvements,” January 28, 2010

GAO Report No. GAO-09-468, “DCAA Audits: Widespread Problems with Audit
Quality Require Significant Reform,” September 23, 2009

GAO Report No. GAO-08-857, “DCAA Audits: Allegations That Certain Audits at
Three Locations Did Not Meet Professional Standards Were Substantiated,” July 22,
2008

GAO Report No. GAO-07-559, “Defense Contracting: Use of Undefinitized Contract
Actions Understated and Definitization Time Frames Often Not Met,” June 19, 2007



                                           35

DoD IG
DoD IG Report No. D-2011-024, “Air Force Space and Missile Systems Center’s Use of
Undefinitized Contractual Actions,” December 16, 2010

DoD IG Report No. D-2011-001, “Marine Corps Systems Command’s Use of
Undefinitized Contractual Actions,” October 27, 2010

DoD IG Report No. D-2010-080, “Air Force Electronic Systems Center’s Use of
Undefinitized Contractual Actions,” August 18, 2010

DoD IG Report No. D-2009-6-009, “Defense Contract Audit Agency Audit Work
Deficiencies and Abusive Work Environment Identified by the Government
Accountability Office,” August 31, 2009

DoD IG Report No. D-2004-112, “Undefinitized Contractual Actions,” August 30, 2004




                                        36

Appendix B. August 29, 2008, Office of
Defense Procurement and Acquisition Policy
Memorandum*




                    37

* Attachments to the memorandum have been removed from the report.




                                                  38

                   Appendix C. Undefinitized Contractual Actions Reviewed 

                                                      NAVAIR’s Use of UCAs for FY 2004–FY 2009
 UCA              Contract               Delivery               Description of Supplies or Services Procured                Contract   Issuance       NTE
Number            Number                  Order/                                                                             Type        Date        Amount
                                        Modification                                                                                                (millions)
                                         Number
  1          N00019-09-C-0065 
         N/A 
                     ALE-47 Dual Dispenser Pod Shipsets and Associated           FFP       7/2/2009      $13.2
                                                                          Hardware for the CH-53D/E A/C
  2          N00019-07-C-0035 
         P00005                    Airborne Electronic Attack Kit for the EA-18G A/C           CPIF     8/31/2007       16.0
  3          N00019-04-C-0005           P00012               Additional ALQ 218 WRA, Channelizer Receiver Testability,       CPAF      9/27/2004       7.0
                                                                            and ALQ 218 WRA 1-4 Testability
  4          N00019-04-C-0005           P00099                Incorporate Phase 1 EA-18G Extended Low-Band Radome            CPFF       8/6/2007       10.0
                                                               requirements and procure materials for the GELBRs, and
                                                                  incorporate Phase 2 GELBR requirements to procure
                                                                materials for additional GELBRs, fabricate/assemble the
                                                                 GELBRs, and perform full-scale development testing
  5          N00019-06-C-0096           N/A 
                       Fabricate, test and deliver AN/ALQ-99 Low Band            FFP      3/22/20         24.3
                                                             Transmitters, V-Pol Antennas, Band 2 Antenna Interface, and
                                                                     deliver spare and repair parts for the EA-6B A/C
  6          N00019-09-C-0086 
         N/A 
                  Time Critical Parts to support Lot 33 Airborne Electronic      FFP      12/23/2008      50.3
                                                                           Attack Kits for the EA-18G Aircraft
  7          N00019-07-C-0057 
         N/A 
                    Fabricate, test, and deliver the AN/ALQ-99 Low-Band          FFP      8/22/2007       52.5
                                                             Transmitters, antennas, Band 2 Adapter Interface Assemblies;
                                                                deliver spare and repair parts; and conduct nonrecurring
                                                             engineering for the processor card upgrade for the EA-6B A/C
  8          N00019-08-C-0046 
         N/A 
                    Fabricate, test, and deliver the AN/ALQ-99 Low-Band          FFP      6/30/2008       76.7
                                                             Transmitters, antennas, Band 2 Adapter Interface Assemblies,
                                                                spare and repair parts, test equipment, and non-recurring
                                                             engineering for the Circuit Card Assembly for the EA-6B A/C
  9          N00019-08-C-0067 
         N/A 
                  Procure Full-Rate Production ALQ-218 Tactical Jamming          FFP      8/28/2008      125.6
                                                              System Receivers and associated spares for the EA-6B A/C
  10         N00019-06-G-0014 
         0010 
                   Engineering Study of the AN/AAR-47A (V) 2 Missile           CPFF       2/1/2007       38.1
                                                                                Approach Warning System

  Acronyms used throughout Appendix C are defined on the final page of Appendix C.



                                                                                      39

          Appendix C. Undefinitized Contractual Actions Reviewed (cont’d)

                                                      NAVAIR’s Use of UCAs for FY 2004–FY 2009

 UCA              Contract 
             Delivery 
                Description of Supplies or Services Procured                        Contract 
   Issuance 
       NTE 

Number            Number 
                Order/ 
                                                                                      Type 
        Date 
        Amount 

                                        Modification
                                                                                                              (millions)
                                         Number 

  11         N00019-06-G-0014 
         0018 
                  Retrofit Labor and Material for the AAR-47 Missile Approach
             CPFF       
9/27/2007       18.8
                                                                                      Warning System

  12         N00019-04-C-0014 
         P00149 
                            Supplemental F/A-18F A/C for Lot 32                          FFP 
      9/26/2007 
      171.9
  13         N00019-04-C-0014 
         P00150 
             Incorporate ECP 6251 to convert a F/A-18F A/C to an EA-18G A/C              FFP 
      9/26/2007 
       .76
  14         N00019-05-C-0030 
         PU0001 
              Test, fabricate, design, and deliver the Presidential Fleet helicopter     CPAF
      8/28/2006       
 27.1
                                                                            (VH-71) Systems Integration Laboratory
  15         N00019-07-C-0040 
         P00002 
                 Block C Weather Radar System upgrade for the MV-22 A/C                  CPAF
      1/30/2008 
      32.0
  16         N00019-08-C-0065 
         N/A 
                          Production of outer wing assemblies for P-3 A/C                   FFP 
      8/19/2008 
      60.6
  17         N00019-06-C-0086 
         P00026 
                      Procure time-critical parts in support of UH-1Y and
               FFP
        1/3/2008        60.0
                                                                                          AH-1Z A/C 

  18         N00019-08-C-0066 
         N/A 
                          Production of outer wing assemblies for P-3 A/C                   FFP 
      8/26/2008 
      129.3
  19         N00019-04-C-3146 
         P00139 
             Update Annex B to include additional Requirement Identifiers from           CPAF
      8/26/2009       
 25.0
                                                                                          the IRS
  20         N00019-04-C-3146 
         P00146 
              Incorporate and update the Stage II SOW to include Full Organic 
          CPAF
      12/4/2009        12.5
                                                                                        Maintenance 

  21
        N00019-04-C-0028 
         P00036 
                Common Cockpits for the MH-60S and MH-60R Helicopters                    FFP 
      7/20/2007 
       8.4 

  22         N00019-05-D-0013 
                                  Zone 5 material structure replacement efforts on P-3 A/C                CPFF 
     11/21/2008 
     17.8* 

                                       0031
  23         N00019-05-D-0013 
         0029-01
             SOW Change 7 delta requirements for P-3 A/C SSI-K installations             FFP 
      11/25/2008 
      2.4
  24         N00019-05-D-0013 
         0030-01
             SOW Change 7 delta requirements for P-3 A/C SSI-K installations             FFP 
      12/5/2008 
       2.4
  25         N00019-05-D-0013 
         0032-02
             SOW Change 7 delta requirements for P-3 A/C SSI-K installations             FFP 
      1/14/2009 
       2.4

  Acronyms used throughout Appendix C are defined on the final page of Appendix C.




                                                                                         40

          Appendix C. Undefinitized Contractual Actions Reviewed (cont’d) 

                                                      NAVAIR’s Use of UCAs for FY 2004–FY 2009
 UCA              Contract 
             Delivery 
                Description of Supplies or Services Procured                      Contract 
     Issuance 
      NTE 

Number            Number 
                Order/ 
                                                                                    Type 
          Date 
       Amount 

                                        Modification
                                                                                                             (millions)
                                         Number 

  26
        N00019-05-D-0013 
         0033 
               SOW Change 7 delta requirements for P-3 A/C SSI-K installations            FFP 
       1/16/2009        2.4
  27
        N00019-05-D-0013 
         0034 
               SOW Change 7 delta requirements for P-3 A/C SSI-K installations            FFP 
       2/13/2009        2.4
  28
        N00019-05-D-0013 
         0039 
                  Zone 5 material structure replacement efforts on P-3 A/C                CPFF 
      6/11/2009       18.2*
  29         N00019-05-D-0013 
         0042 
                    Zone 5 material structure replacement efforts on P-3 A/C              CPFF 
      10/15/2009       6.8
  30         N00019-05-D-0008 
         0045-01
             SOW Change 7 delta requirements for P-3 A/C SSI-K installations            FFP 
       5/28/2009        2.2
  31         N00019-05-D-0008 
         0046 
                    Zone 5 material structure replacement efforts on P-3 A/C              CPFF 
       5/1/2009       13.5
  32         N00019-05-D-0008 
         0056 
                    Zone 5 material structure replacement efforts on P-3 A/C              CPFF 
      9/23/2009        6.2
  33         N00019-05-D-0008 
                                   Zone 5 material structure replacement efforts on P-3 A/C           CPFF & FFP 
   12/30/2009      14.2
                                       0060 

  34         N00019-07-G-0008 
         0071 
                 Recurring and nonrecurring engineering to support retro-fitting       CPFF & FFP
    3/31/2009       61.6
                                                                    fielded V-22 A/C with upgraded Ice Protection Systems
  35         N00019-07-G-0008 
         1000 
               Implementation of a V-22 EAPS design solution via retrofit kit and      CPIF & FFP 
   3/27/2007       24.5
                                                                        installation into (24) previously delivered aircraft
  36         N00019-07-G-0008 
                                Support for the acceleration of kits, installations, and tooling to   CPIF & FFP
    12/7/2007        2.5
                                       1000-05 

                                                                   support an expedited incorporation of the EAPS kit ECP
  37         N00019-04-C-0015 
         N/A 
                Initial activities in support of the build/delivery of AMC and multi­      FFP         2
 /17/2004     62.7
                                                                             purpose displays for the F/A-18E/F A/C
  38         N00019-04-C-0015 
         P00008 
                        FRP build and delivery of AMCs for Lot 29 A/C                   FFP 
       1/31/2005       44.9

  Acronyms used throughout Appendix C are defined on the final page of Appendix C.




                                                                                        41

          Appendix C. Undefinitized Contractual Actions Reviewed (cont’d) 

                                                      NAVAIR’s Use of UCAs for FY 2004–FY 2009

 UCA              Contract 
            Delivery 
              Description of Supplies or Services Procured                  Contract   Issuance       NTE
Number            Number 
               Order/ 
                                                                              Type        Date        Amount
                                       Modification
                                                                                                  (millions)
                                        Number 

  39         N00019-05-C-0045 
        N/A 
                 Establish ISR UAV services for a Naval ESG deployment and          FFP      4/18/2005       14.5
                                                                                   GOPLAT security 

  40         N00019-05-C-0045 
        P00005 
            Procure mission critical UAV ISR services in support of the USS      FFP      12/14/2005      5.5
                                                                               Oakhill deployment effort

  41         N00019-05-C-0045          P00008
                                         
    
             Procure additional mission critical UAV ISR services in support     FFP      3/15/2006       5.0
                                                                            of the GOPLAT security effort
  42         N00019-05-C-0045 
        P00009 
                Procure UAV ISR services in support of the USS Trenton           FFP       4/6/2006       6.9
                                                                                   deployment effort
  43         N00019-05-C-0045 
        P00011 
                Procure UAV ISR services in support of the USS Saipan            FFP      7/19/2006       7.1
                                                                                   deployment effort
  44         N00019-05-C-0011 
        N/A 
               Upgrade of ALQ-157 IR Countermeasure systems and associated          FFP      10/20/2004      6.6
                                                                                        efforts
  45         N00019-05-C-0011 
        P00014 
              Depot-Level Test/support equipment related to the upgraded
        FFP       4/4/2006        .9
                                                                        ALQ-157A IR Countermeasure system

  46         N00019-07-C-0030 
        N/A 
                    FRP build and delivery of AMCs for F/A-18E/F/G A/C              FFP       2/5/2007       56.2
  47         N00019-07-C-0041 
        N/A 
                      To procure VTUAV long lead items and LRIP units               FFP      6/21/2007       35.7
  48         N00019-07-C-0041 
        P00008 
                           To procure VTUAV LRIP II systems                      FFP      9/11/2008       32.9
  49         N00019-07-C-0041 
        P00013 
                          To procure VTUAV LRIP III systems                      FFP       2/4/2009       40.0

  Acronyms used throughout Appendix C are defined on the final page of Appendix C.




                                                                                       42

           Appendix C. Undefinitized Contractual Actions Reviewed (cont’d)
                                                            NAVAIR’s Use of UCAs for FY 2004–FY 2009

 UCA                Contract                 Delivery                    Description of Supplies or Services Procured                                  Contract            Issuance            NTE
Number              Number                    Order/                                                                                                    Type                 Date             Amount
                                            Modification                                                                                                                                     (millions)
                                             Number
  50          N00019-09-D-0015             N/A                          Logistics, field service, software, technical publication, and                    ID/IQ            12/30/2008            18.7
                                                                                engineering support for the C/KC-130 A/C
  51          N00019-09-C-0026             N/A                            LRIP I for the Advanced Antiradiation Guided Missile                              FPI            12/23/2008            52.6*
  52          N00019-09-C-0004             N/A                        To procure Gasoline Micro Air Vehicle systems and 2 years of                         FFP              11/3/2008            65.0*
                                                                                      associated logistics support
  *Initial spares and over and above work requests within the scope and terms of the contract are not subject to the UCA restrictions imposed by DFARS 217.74. As a result, we excluded the portion of
  the UCA and the NTE value related to those efforts.

  A/C                            Aircraft
  AMC                            Advanced Mission Computers
  CPAF                           Cost-Plus-Award-Fee
  CPFF                           Cost-Plus-Fixed-Fee
  EAPS                           Engine Air Particle Separator
  ECP                            Engineering Change Proposal
  ESG                            Expeditionary Strike Group
  FFP                            Firm-Fixed-Price
  FPI                            Fixed-Price-Incentive
  FRP                            Full-Rate Production
  GELBR                          EA-18G Extended Low Band Radome
  GOPLAT                         Gulf Oil Platform
  ID/IQ                          Indefinite-Delivery, Indefinite-Quantity
  IR                             Infrared
  IRS                            Interface Requirements Specification
  ISR                            Intelligence, Surveillance, Reconnaissance
  LRIP                           Low-Rate Initial Production
  SOW                            Statement of Work
  SSI-K                          Special Structural Inspection-Kit
  UAV                            Unmanned Aerial Vehicle
  VTUAV                          Vertical Takeoff and Landing Tactical Unmanned Aerial Vehicle
  WRA                            Weapons Replaceable Assembly



                                                                                                   43
                                     Appendix D. Deficiencies Identified
                                                 Detailed Results of UCAs Reviewed
                                                                     Deficiencies in NAVAIR Use of Undefinitized Contractual Actions
 UCA     Contract Number      Delivery      Issuance      Inadequate        Inadequate       Definitization     Obligation Limits      Inadequate
Number                         Order/         Date        Request to       Justification to    Untimely          Exceeded or not         Profit
                             Modification                Issue a UCA         Use a UCA                        Aligned with the 2008     Support
                               Number                                                                          DPAP Memorandum
  1      N00019-09-C-0065   N/A             7/2/2009                                               √                   √1
  2      N00019-07-C-0035   P00005          8/31/2007                                              √
  3      N00019-04-C-0005   P00012          9/27/2004                                              √                   -√2                N/A
  4      N00019-04-C-0005   P00099          8/6/2007
  5      N00019-06-C-0096   N/A             3/22/2006
   6     N00019-09-C-0086   N/A             12/23/2008
   7     N00019-07-C-0057   N/A             8/22/2007                                              √
   8     N00019-08-C-0046   N/A             6/30/2008
   9     N00019-08-C-0067   N/A             8/28/2008
  10     N00019-06-G-0014   0010             2/1/2007        √3                                    √
  11     N00019-06-G-0014   0018            9/27/2007                                              √
  12     N00019-04-C-0014   P00149          9/26/2007                                              √
  13     N00019-04-C-0014   P00150          9/26/2007
  14     N00019-05-C-0030   PU0001          8/28/2006        √6                                    √                                      N/A
  15     N00019-07-C-0040   P00002          1/30/2008                                                                                     N/A
  16     N00019-08-C-0065   N/A             8/19/2008                                              √+
  17     N00019-06-C-0086   P00026           1/3/2008                                                                                      √
  18     N00019-08-C-0066   N/A             8/26/2008                                              √
  19     N00019-04-C-3146   P00139          8/26/2009                            √                 √                                      N/A




                                                                    44
                            Appendix D. Deficiencies Identified (cont’d)
                                               Detailed Results of UCAs Reviewed
                                                                      Deficiencies in NAVAIR Use of Undefinitized Contractual Actions
 UCA     Contract Number      Delivery     Issuance      Inadequate        Inadequate        Definitization    Obligation Limits        Inadequate
Number                         Order/        Date        Request to       Justification to     Untimely          Exceeded or not          Profit
                            Modification                Issue a UCA         Use a UCA                         Aligned with the 2008      Support
                              Number                                                                          DPAP Memorandum
  20     N00019-04-C-3146   P00146         12/4/2009                                               √                                       N/A
  21     N00019-04-C-0028   P00036         7/20/2007                                               √                    √2

  22     N00019-05-D-0013   0031           11/21/2008                                              √
  23     N00019-05-D-0013   0029-01        11/25/2008                                              √
  24     N00019-05-D-0013   0030-01        12/5/2008                                               √
  25     N00019-05-D-0013   0032-02        1/14/2009
  26     N00019-05-D-0013   0033           1/16/2009
  27     N00019-05-D-0013   0034           2/13/2009
  28     N00019-05-D-0013   0039           6/11/2009                                               √
  29     N00019-05-D-0013   0042           10/15/2009                                              √
  30     N00019-05-D-0008   0045-01        5/28/2009                                                                    √1
  31     N00019-05-D-0008   0046            5/1/2009                                               √                    √1
  32     N00019-05-D-0008   0056           9/23/2009                                               √
  33     N00019-05-D-0008   0060           12/30/2009
  34     N00019-07-G-0008   0071           3/31/2009                                               √                    √1
  35     N00019-07-G-0008   1000           3/27/2007                                                                                        √
  36     N00019-07-G-0008   1000-05        12/7/2007                                                                                        √
  37     N00019-04-C-0015   N/A            2/17/2004        √4                                     √                                        √




                                                                  45
                            Appendix D. Deficiencies Identified (cont’d)
                                                Detailed Results of UCAs Reviewed

                                                                       Deficiencies in NAVAIR Use of Undefinitized Contractual Actions
 UCA     Contract Number       Delivery     Issuance      Inadequate        Inadequate        Definitization     Obligation Limits       Inadequate
Number                          Order/        Date        Request to       Justification to     Untimely           Exceeded or not         Profit
                             Modification                Issue a UCA         Use a UCA                          Aligned with the 2008     Support
                               Number                                                                           DPAP Memorandum
  38     N00019-04-C-0015   P00008          1/31/2005        √4                                                                              √
  39     N00019-05-C-0045   N/A             4/18/2005                                                                                       N/A
  40     N00019-05-C-0045   P00005          12/14/2005                                              √                                       N/A
  41     N00019-05-C-0045   P00008          3/15/2006                                                                                       N/A
  42     N00019-05-C-0045   P00009           4/6/2006        √3                                                                             N/A
  43     N00019-05-C-0045   P00011          7/19/2006                                                                                       N/A
  44     N00019-05-C-0011   N/A             10/20/2004
  45     N00019-05-C-0011   P00014           4/4/2006
  46     N00019-07-C-0030   N/A              2/5/2007        √5
  47     N00019-07-C-0041   N/A             6/21/2007                             √                 √
  48     N00019-07-C-0041   P00008          9/11/2008                             √                 √                    √1
  49     N00019-07-C-0041   P00013           2/4/2009                             √                 √




                                                                   46
                                      Appendix D. Deficiencies Identified (cont’d)
                                                                Detailed Results of UCAs Reviewed
                                                                                            Deficiencies in NAVAIR Use of Undefinitized Contractual Actions
 UCA         Contract Number            Delivery           Issuance          Inadequate             Inadequate            Definitization       Obligation Limits            Inadequate
Number                                  Order/               Date          Request to Issue        Justification to         Untimely             Exceeded or not              Profit
                                      Modification                             a UCA                 Use a UCA                                Aligned with the 2008          Support
                                        Number                                                                                                DPAP Memorandum
  50        N00019-09-D-0015        N/A                   12/30/2008                                                             √
  51        N00019-09-C-0026        N/A                   12/23/2008               √6
                                                                                                                                 √                      √1,2
  52        N00019-09-C-0004        N/A                    11/3/2008                                                             √                       √1
                                                                                   7                       4                    29                       10                      5
Total


   √ Discrepancy noted.
   + In the process of being terminated as of May 24, 2011.
   - Obligations were in excess of the allowable amount by less than one percent.
   1
     Not in compliance with the August 2008 DPAP memorandum because funds were not obligated in accordance with the contractor’s proposed requirements for UCAs funded at or near the
   maximum amount allowable at issuance. We considered funding obligated within 5 percent of the maximum permissible to be at or near the maximum amount.
   2
     Exceeded 10 U.S.C. § 2326(b) obligation limitations.
   3
     The authorized official did not approve the authorization request to issue a UCA.
   4
     UCA request did not adequately address the need to begin performance before definitization and the adverse impacts on Navy requirements if a UCA was not issued.
   5
     UCA request did not adequately address the need to begin performance before definitization if a UCA was not issued.
   6
     UCA request did not adequately address the adverse impacts on Navy requirements if a UCA was not issued.




                                                                                           47
                   Appendix E. Definitization Elapsed Days for NAVAIR UCAs
                              NAVAIR Definitization Details for FY 2004–FY 2009
   Contract Number, 
         Issuance 
          Qualifying 
   Definitization 
                 Days From Award to 
                     Days From Receipt of    Days From 

       Delivery 
               Date 
           Proposal Date 
     Date 
                       Receipt of Qualifying 
                  Qualifying Proposal     Award to 

   Order/Modification
                                                                                  Proposal 
                           to Definitization    Definitization 

N00019-09-C-0065                    7
 /2/2009     12/10/2009 
            6/16/2010
                       
 161                          
       188                     
   349
N00019-07-C-0035 - P00005         8
 /31/2007      
7/17/2007      
       2/28/2008           
Received before UCA award date                     N/A 
                       181 

N00019-04-C-0005 - P00012 
      9/27/2004 
         1/28/2005 
           9/26/2005 
                         123 
                               241 
                       364 

N00019-04-C-0005 - P00099 
         8/6/2007 
     10/15/2007 
            3/21/2008 
                          70 
                               158 
                       228 

N00019-06-C-0096                 3
 /22/2006         4/25/2006
            6/14/2006
                                                                                  
                       
    34                  
                50             
            84
N00019-09-C-0086              1
 2/23/2008           2/27/2009
            5/11/20
                                                                                 
 09                    
     66                 
                 73            
            139
N00019-07-C-0057                 8
 /22/2007       11/14/2007 
            6/30/20
08                     
    84                  
               229                 
       313
N00019-08-C-0046                 6
 /30/2008         10/7/2008
            3/18/2009
                                                                                  
                       
    99                  
               162                 
       261
N00019-08-C-0067                  8/28/2008
                                  
                  
7/24/2008        
   12/18/2008          Received
                                                                                                  
       before UCA award date                    N/A 
                       112 

N00019-06-G-0014 - 0010 
           2/1/2007 
        5/9/2007 
           3/31/2008 
                         97 
                                327 
                       424 

N00019-06-G-0014 - 0018 
       9/27/2007 
           10/26/07 
            7/2/2008 
                         29 
                                250 
                       279 

N00019-04-C-0014 - P00149         9/26/2007
                                  
                
6/15/2007      
       7/25/2008            Received
                                                                                                
         before UCA award date                    N/A 
                       303 

N00019-04-C-0014 - P00150         9/26/2007
                                  
                
7/19/2007      
       3/24/2008            Received
                                                                                                
         before UCA award date                    N/A 
                       180 

N00019-05-C-0030 - PU001          8/28/2006
                                  
                 
7/19/2006              7/9/2007
                                                                            
                  Received
                                                                                                    
     before UCA award date                    N/A 
                       315 

N00019-07-C-0040 - P00002 
     1/30/2008 
          4/10/2008 
           7/24/2008                           71 
                                105 
                       176 

N00019-08-C-0065                8
 /19/2008          12/5/2008
                   
 *
                                                                            8/6/2010                           108                             
   609                         7
17
N00019-06-C-0086 - P00026 
         1/3/2008 
      4/2/2008               9
 /12/2008                
        90
                                 163                         
253
N00019-08-C-0066              8
 /26/2008           1/22/2009
               9/2/2010
                                                                                   
                   
     149                       
           588                 
        737
N00019-04-C-3146 - P00139 
   8/26/2009 
           2/25/2010 
            8/13/2010 
                       183 
                                 169 
                       352 

N00019-04-C-3146 - P00146 
   12/4/2009 
           1/26/2010 
            3/17/2011 
                       53 
                                  415 
                       468
N00019-04-C-0028 - P00036      

                               7/20/2007           
5/24/2007      
         2/8/2008          Received
                                                                                               
        before UCA award date                      N/A 
                       203
N00019-05-D-0013 - 0031 
     11/21/2008 
         12/19/2008 
            4/29/2010 
                       28 
                                  496 
                       524




                                                                                         48

             Appendix E. Definitization Elapsed Days for NAVAIR UCAs (cont’d)
                            NAVAIR Definitization Details for FY 2004–FY 2009


Contract Number, Delivery 
    Issuance 
         Qualifying 
 Definitization 
          Days From Award to 
          Days From Receipt   Days From Award
   Order/Modification
           Date 
            Proposal 
      Date 
                Receipt of Qualifying 
         of Qualifying      to Definitization
                                                     Date 
                                    Proposal 
                 Proposal to
                                                                                                                         Definitization
N00019-05-D-0013 - 0029-01     
11/25/2008        9/16/2008
                                                      
             6
 /11/2009      R
                                                                                     
 eceived before UCA award date           N/A 
               198 

N00019-05-D-0013 - 0030-01        1
 2/5/2008     9/16/2008
                                                      
             6/11/2009
                                                                      
              R
                                                                                     
 eceived before UCA award date           N/A 
               188 

N00019-05-D-0013 - 0032-02       1
 /14/2009       9/16/2008
                                                      
       
     6/11/2009 
      Received before UCA award date            N/A 
               148 

N00019-05-D-0013 - 0033          1
 /16/2009       9/16/2008
                                                          
         6/11/2009
                                                                          
          R
                                                                                     
 eceived before UCA award date           N/A 
               146 

N00019-05-D-0013 - 0034          2
 /13/2009       9/16/2008
                                                          
         6/11/2009
                                                                          
          R
                                                                                     
 eceived before UCA award date           N/A 
               118 

N00019-05-D-0013 - 0039 
        6/11/2009 
       7/23/2009 
      5/27/2010 
                     42 
                       308 
               350 

N00019-05-D-0013 - 0042 
      10/15/2009 
       11/24/2009 
        6/4/2010 
                    40 
                       192 
               232 

N00019-05-D-0008 - 0045-01 
    5/28/2009 
        6/18/2009 
      9/17/2009 
                     21 
                        91 
               112 

N00019-05-D-0008 - 0046 
            5/1/2009 
    6/15/2009 
        3/3/2010 
                    45 
                       261 
               306 

N00019-05-D-0008 - 0056 
        9/23/2009 
       10/5/2009 
      5/18/2010 
                     12 
                       225 
               237 

N00019-05-D-0008 - 0060 
      12/30/2009 
        1/14/2010 
      6/15/2010 
                     15 
                       152 
               167 

N00019-07-G-0008 - 0071 
        3/31/2009 
       6/17/2009 
      2/24/2010 
                     78 
                       252 
               330 

N00019-07-G-0008 - 1000 
        3/27/2007 
       5/24/2007 
      9/14/2007 
                     58 
                       113 
               171 

N00019-07-G-0008 - 1000-05 
    12/7/2007 
        1/16/2008 
      4/29/2008 
                     40 
                       104 
               144 

N00019-04-C-0015                2
 /17/2004        5/28/2004 
      3/18/2005 
                   
 101                    
   294             
   395
N00019-04-C-0015 - P00008          1
 /31/2005     8/31/2004
                                                        
           3/18/2005
                                                                        
            R
                                                                                     
 eceived before UCA award date           N/A 
                46 

N00019-05-C-0045                4
 /18/2005        6/2/2005     
   9/15/2005 
                   
 45                 
       105             
   150
N00019-05-C-0045 - P00005 
    12/14/2005 
        1/6/2006 
         8/8/2006 
                    23 
                       214 
               237 

N00019-05-C-0045 - P00008          3
 /15/2006     3/15/2006
                                                        
             8/8/2006
                                                                        
            R
                                                                                     
 eceived before UCA award date           N/A 
               146 

N00019-05-C-0045 - P00009            4
 /6/2006    4/3/2006
                                                        
           8/17/2006
                                                                        
            Received
                                                                                         
     before UCA award date           N/A 
               133 





                                                                                   49

               Appendix E. Definitization Elapsed Days for NAVAIR UCAs (cont’d)
                              NAVAIR Definitization Details for FY 2004–FY 2009

  Contract Number, 
              Issuance         Qualifying            Definitization             Days From Award to 
              Days From Receipt of              Days From 

      Delivery 
                    Date          Proposal Date              Date                   Receipt of Qualifying 
            Qualifying Proposal              Award to 

  Order/Modification
                                                                                     Proposal 
                    to Definitization              Definitization 

N00019-05-C-0045 - P00011             7
 /19/2006     7/12/2006                8/17/2006          Received before UCA award date                N/A 
                         29 

N00019-05-C-0011                 1
 0/20/2004        11/22/2004                4/27/2005                        33             
                 156                
         189
N00019-05-C-0011 - P00014                4
 /4/2006   3/30/2006                7/18/2006          Received before UCA award date                N/A 
                         105 

N00019-07-C-0030                        2
 /5/2007    1/10/2007                5/16/2007          Received before UCA award date                N/A 
                         100 

N00019-07-C-0041                    6
 /21/2007       4/13/2007                4/24/2008          Received before UCA award date                N/A 
                         308 

N00019-07-C-0041 - P00008            9
 /11/2008      5/28/2008                9/22/2009          Received before UCA award date                N/A 
                         376 

N00019-07-C-0041 - P00013                 2
 /4/2009 12/19/2008                9/22/2009          Received before UCA award date                N/A 
                         230 

N00019-09-D-0015                1
 2/30/2008          1/30/2009                 4/1/2010                        31             
                 426                
         457
N00019-09-C-0026                1
 2/23/2008          3/10/2009                9/30/2009                        77             
                 204                
         281
N00019-09-C-0004                   1
 1/3/2008        9/19/2008                9/24/2009          Received before UCA award date                N/A 
                         325 

  *
    The UCA is undefinitized as of May 24, 2011, and is currently in the process of being terminated. We are using the date NAVAIR officially notified the contractor that the
  contract was going to be terminated as the definitization date to calculate the number of elapsed days since NAVAIR personnel are no longer trying to definitize the contract but
  rather terminate it.




                                                                                           50

Appendix F. Summary of Management
Comments on the Finding and Our Response
The Deputy Assistant Commander for Contracts, NAVAIR, provided the following
comments on the Finding. For the full text of the comments, see the Management
Comments section of this report.

Naval Air Systems Command Comments on Authorization
Deficiencies
The Deputy Assistant Commander for Contracts, NAVAIR, agreed that NAVAIR’s
policy and guidance were inconsistent, but stated that the current guidance has corrected
the inconsistency.

Our Response
As stated in the report, we agree that current guidance now provides approval alternatives
in the absence of the department head and did not consider a recommendation to be
necessary.

Naval Air Systems Command Comments on Justification
Deficiencies
The Deputy Assistant Commander for Contracts, NAVAIR, disagreed with our position
on inadequate justifications. For the UCA issued on contract N00019-05-C-0030, the
Deputy Assistant Commander for Contracts, stated that a delay in performance for the
systems integration laboratory would result in the “President, Vice President, members of
the President’s Cabinet, and other dignitaries having to continue to fly in legacy aircraft
with reduced performance and communications capability.” The Deputy Assistant
Commander for Contracts disagreed with our analysis that “seems to separate this
DFARS language” into two requirements: (1) justification addressing why a UCA is
necessary to meet the Navy’s requirement and (2) addressing the need to begin
performance before definitization and the potential adverse impacts to Navy requirements
if a UCA is not issued. The Deputy Assistant Commander for Contracts stated that the
distinction between these discrete requirements was unclear without a basis in regulatory
language.

Our Response
For the UCA issued on contract N00019-05-C-0030, modification PU0001, we
determined that this UCA was adequately justified as other documents in the contract file
provided the justification for the need to issue a UCA to meet the Navy’s requirement.
However, we determined that this UCA was improperly authorized because the
authorization request did not adequately state an adverse impact on the Government.
NAVAIR personnel cited reduced capabilities in the authorization request, but did not
explain why the current aircraft was inadequate. If the current aircraft could not provide
the protection needed and upgrades were necessary, this adverse impact should have been


                                            51

stated in the authorization request. Although we believe technology should be upgraded
and improved continuously, we do not believe a UCA should be used unless the current
technology can no longer meet the Government’s needs.

DFARS Subpart 217.74, “Undefinitized Contractual Actions,” contains two sets of
requirements for issuing UCAs. DFARS Subpart 217.7403, “Policy,” states that a UCA
may be used only when the negotiation of a definitive contract is not possible to meet the
Government’s requirements and when the Government’s interests demands that a binding
commitment be in place for a contractor to begin performance immediately. We
considered contract documentation in addition to the UCA authorization request to
determine whether NAVAIR adequately justified why a UCA was necessary to meet the
Navy’s requirements. DFARS Subpart 217.7404-1, “Authorization,” requires, as stated
in the NAVAIR’s comments, that the request for approval explain the need to begin
performance, including addressing the adverse impacts from delays in beginning
performance. We used this regulation to determine whether the authorization request
fully addressed DFARS Subpart 217.7404-1 requirements.

Naval Air Systems Command Comments on Late Definitization
and Profit Determination Deficiencies
The Deputy Assistant Commander for Contracts, NAVAIR, agreed with the late
definization and profit determination statements.

Our Response
The Deputy Assistant Commander for Contracts’ statement is in agreement with our late
definitization and profit determination portions of the Finding.

Naval Air Systems Command Comments on Obligation
Deficiencies
The Deputy Assistant Commander for Contracts, NAVAIR, disagreed with our position
on some of the obligation deficiencies and stated that one UCA had excess obligations of
0.06 percent. He stated that for another UCA, the qualifying proposal was received in
November 2008, and the contractor updated its proposal in March 2009. According to
the Deputy Assistant Commander for Contracts, the November 2008 proposal was
received before the award of the UCA, consequently the UCA would not have violated
the 50 percent threshold established in 10 U.S.C. § 2326. He stated that NAVAIR
provided documentation for contract N00019-05-D-0008, delivery orders 0045 and 0046,
that showed obligations were aligned with the contractors’ spend plans. He also provided
a table for these two UCAs showing the amount obligated and the approximate date on
which the funds obligated at award would be fully expended by the contractor.

Our Response
The draft report contained footnotes in Appendix D for contract N00019-04-C-0005 and
the body of the report stated that obligations for that UCA were in excess of the allowable
amount by less than one percent. For contract N00019-09-C-0026, we stated in the
discussion draft report provided to NAVAIR that the November 2008 proposal was the


                                            52

qualifying proposal. We received comments during the discussion draft phase from
NAVAIR personnel stating that the March 2009 proposal was the qualifying proposal,
not the November proposal. Because this conflicted with our information, we requested
confirmation, and NAVAIR personnel again stated that the qualifying proposal was the
March 10, 2009, proposal. Section 2326, Title 10, United States Code states:

              The term “qualifying proposal” means a proposal that contains
              sufficient information to enable the Department of Defense to conduct
              complete and meaningful audits of the information contained in the
              proposal and of any other information that the Department is entitled to
              review in connection with the contract, as determined by the
              contracting officer.

We accepted the March 10, 2009, proposal to be the qualifying proposal as stated by
NAVAIR contracting personnel. In addition, contracting personnel provided contract
documentation that stated that the March 2009 proposal was the proposal used for audits
and negotiations.

For contract N00019-05-D-0008, delivery order 0046, the provided spend plan showed
planned work to begin on April 1, 2009, which was before the issuance of the UCA.
Because the UCA was issued after the planned beginning of work, we used the first
6 months (180 days) from the spend plan to determine whether NAVAIR obligated funds
in excess of the contractor’s needs. According to the spend plan, the contractor would
have needed $5,599,744, within the first 6 months of performance. Contracting
personnel obligated $6,607,555 at issuance. According to the spend plan provided by
NAVAIR for contract N00019-05-D-0008, delivery order 0045; the contractor would
have needed $958,849 for work during the first 6 months of performance. Contracting
personnel obligated $1,106,381 at issuance. The contractor’s needs for the planned
undefinitized period for both UCAs were lower than the funds obligated at issuance of
the UCAs.




                                                53

Naval Air Systems Command Comments






                                                       THE ASSISTANT
                                                           A SSISTANT SECRETARY OF THE NAvY
                                                                                       N AvY
                                                              CRESEARCH. DEVEl.Of'MENT
                                                                         DEVELOPMENT AND ACQUlsmoNJ
                                                                                            ACQUlsmoN)
                                                                              NAil'( PENTAGON
                                                                         1000 NAVY   p£NTAGON
                                                                                         203~lOOO
                                                                           WASHINGTON DC 203!5Q.l000

                                                                                    MAY           2 201\
                                                                                                    2011

      MEMORANDUM FOR DEPARTMENT OF DEFENSE - INSPEcrOR
                                             INSPECTOR GENERAL
                     ARLINGTON, VIRGfNlA
                                VIRGINIA

      SUBJECf: Response to Department of Defense inspeetor
      SUBJEcr:                                   Inspeetor General (DoOlG)
                                                                   CDoDIGJ Draft Report
               Regarding Naval Air Systems Command Use ofUndefmitized
                                                           ofUndefinitized Contract
               Actions

      Reference: (a)
      Reference: <aJ DoDIG Report, D-2009-DOOOCG-0248_
                                    D-2009-DOOOCG-0248.003,003, "Additional Actions Can
                     Improve Naval Air Systems Command's Use ofUndefmitized
                                                                 ofUndefinitized
                     ContraclUal
                     Contractual Actions", dated 23 March 2011
                                                          20 11

              Reference (a)
                        Cal is the draft audit report forwarded for Department of the Navy
      (DoN) review and comment.
                         comment The attached document provides the DoN response to the
            report,
      draft report.


      them   l..f .yoilu.baivv.c
           10l.f.YOilU.h'il   lic..an
                                   iiyy.q
                                   an
                                   ii  . qiiiiU        Click
                                              Uiiiieeish
                                                     iSh
                                                       iiii·' ooiiln
                                                                  ln..ssiiP
                                                                        iiPiiiieeii.rrIa
                                                                                      ii.to
                                                                                          iniiiii.ng
                                                                                      ta·.iD          add
                                                                                                 iing..tO   t.hiiis's..JPEG
                                                                                                       to..ith         im
                                                                                                                       miii
                                                                                                                         iieeiiiiffi
                                                                                                                             miiiooi.o
                                                                                                                                     .oiiii'riii   file
                                                                                                                                             iiiifS.a
                                                                                                                                               tsiaii
                                                                                                                                                    iitttla
                                                                                                                                                         iiaiichm
                                                                                                                                                              cli.ent,
                                                                                                                                                                 un.ent~ please refer
      them 10




                                                                                                       Sean J,
                                                                                                            J. Stackley


      Attachment:
      I. Response to the Subject Draft Report
      1.




                                                                                                                     54
Naval Air Systems Command Comments






      ---                                   DEPARTMENT Of
                                             RADM
                                                       OF THE NAVY
                                               NAVA.L AIR
                                               NAVAL
                                             RAOM ....
                                                    V'-lLIAM
                                                      UIAM A MDFfETT
                                                ~"'Zl (Juse
                                                4:'123
                                                                     ca"'.lA~O
                                                        "'IR SYSTEMS CQI"M"OO
                                                                MOFFETI BUflCHNG
                                                                        BUilDING
                                                        aUSE ROAD, BLDG 2212
                                           :1ATVXENTRIVER
                                           :lATU1.ENT RIVER MARYLAND
                                                                         'l211
                                                            MAAYlAND2Ot7:1,'~7
                                                                      2OIi7o-1~1


                                                                                         4200
                                                                                         Sec AlR-2 . I. 1.3/021-1 I
                                                                                         SeT A1R-2

                                                                                           APR 1 8 2011
       MEMORANDUM

      From: AIR-2.0
      To:   AlR-ooG
            AIR-ooG

      Subj:   RESPONSE TO DODIG DRAFT
                                DRAfT REPORT ON USE OF UNDEFINITIZED
              CONTRACTUAL ACTIONS (D2oo9-ooooCG-0248.oo3)
              CONTRACfUAl          (D2oo9-DOooCG-0248.oo3)

      Ref:    (a) AIR-OOG4
                  AIR-ooG4 emai
                           emaill of30
                                  ofJO Mar 11
                                           II forwarding draft report
                                                               repon for review and comment
                                                                                    commen!

      Encl: (I) NA VAIR response to DODiG Draft Repon
                NAVAfR                          Report on Use ofUndefinitized Contractual
               Actions

      1. As requested by reference (a), AIR 2.0 has reviewed the draft audit report. Enclosure (I)
      contains the comments which resulted from this review.




                                                            J. T.PAlMER
                                                               T.PALMER
                                                            Deputy Assistant Commander
                                                            for Contracts




                                                                    55
Naval Air Systems Command Comments






                    NA v AL A
                    NAVAL   AIR
                              IR SYSTEMS COMMAND RESPONSE TO
                           DODIG DRAFT AUDIT
                                         AUD IT REPORT ON
                  "ADDITIONAL ACTIONS CAN IMPROVE NAVAL AIR SYSTEMS
              COMMAND'S USE OF UNDEFINITIZED CONTRACTUAL ACTIONS"
                    D2009-DOOOCG-0248,OO3, DATED 23 MARCH 2011


      Finding 1: Inconsistent             of Undetinitized Contractual
                 Incons istent Management ofUndefinitized  COnlractual Actions

      NA VAIR comcacting
                 contracting personnel did not consistently comply compl y w  ith statutory and 000
                                                                            with
      requirements for managing 36 of the 52 UCAs we reviewed.   rev iewed. For the 36 UCAs. valued at     al
      about S 1.2 billion. NA VAIR
            $1.2                VAlR personnel did not: nOI:
         • adequately prepare aUlhori7..ation
                                    authori7.a.tion requests to issue 7 UCAs because NAVAIR
              instructions did not define UCA approval delegations in the       me absence of the
             authorized approving official and did not adequately describe the need to begin
              pcrfomlance before definitizalion
                                     definitization and the                                  requirements:
                                                           lite adverse impact on Navy requirements;
         • properly justify the issuance of 4 UCAs because they did nOI          not adequately describe
              whyy a UCA was necessary to meet the Navy' s requirements:
              wh
         • definitize 29 UCAs within withi n the 180-day time frame because of muhiple  mult iple
             cont  ributing factors that
             contributing            thm included a lack of contracting personnel
                                                                              personnclto to complete
             derinitization,   COntractors not
             definitization. contractors    nOt submilling
                                                 submilting adequate proposals in a timely manner, m<nmer,
             or Government
                 Govcrnmclll personnel changing contract requirements afte        afterr NA VVALR
                                                                                               AlR
             contracting
             COlllfllcting personnel issued the UCA. The contractors' proposal pricing updates
                              contract negotiations with Government personnel also impacted
             and extended cOntenct
             NAVAIR contracting personnel's
                                       persol1Jlc1' s ability to definitize
                                                                  definitizc UCAs within the required
             time frames:
                    frames;
         • adequately support all required elements of profit detenninations
                                                                        determinations for 5 UCAs
             because the business clearance memorandum did not          nOI include sufficient support
             that would allow an independent party to determine if the contracting offi         officer's
                                                                                                    cer's
             consideration of reduced cost risk was renected
                                                           reflected in profit objectives or the input's
                                                                                                     inputs
             used to develop
                       deve lop the profit objcclive;
                                           objective; and
         • obligate funds within
                               withi n allowable limits for 3 UCAs because they miscalculated the
             allowable obligation amount and did not obligate funds in accordance with the
             contractor' s proposed requirements for 7 0[22    of 22 UCAs issued after the August
             2008 DPAP memorandum because they did not take steps to com             complplyy with Lhe
                                                                                                     the
             August 2008 DPAP memorandum.

      However. NAVAIR contracting
                          cOlltract ing personnel adequately documented their
                                                                           the ir determination of
      price reasonableness for all
                               illl 50 definitized UCAs. but they did not always adequately
      document their detennination of profit as discussed in the report.

      As a result. NA
                   NAVAVAIRIR officials'
                              offici als' positions in price negotiation and award may have been
      weakened.
      weakened, and delays
                       delay~ in definiLizing
                                 definilizing contracts may have increased the COSt
                                                                                  cost to the
      Government. Additionally. the Government may have paid excess profit to the
      contractors because NA VAIR contracting officials did not adequatel
                                                                      adequatelyy document
      allowable
      allowab le profit.




                                                                           56
Naval Air Systems Command Comments






                    NA VAL AIR SYSTEMS COMMAND RESPONSE TO
                    NAVAL
                           DODIG
                           DODlG DRAFT
                                 DRAIT AUDIT REPORT ON
                  "ADDITIONAL ACTIONS CAN IMPROVE NAVAL AIR SYSTEMS
                  "ADDITlONAL
              COMMAND'S USE OF UNDEFINITIZED CONTRACTUAL ACTIONS"
                    D2009-DOOOCG-024S.003,
                    D2009-DOOOCG-024B.003, DATED 23 MARCH 20
                                                          2011I

       NAYA1R
       NAYAIR Response: Partially
                        Partially Concur. NAVAIR
                                          NAVAIR's
                                                 's commitment to the effective and adequate
       management of UCAs remains strong.
                                        sirong. Each DoD1G bullet relaled 10
                                                                          to finding J follows with
       NA VAIR
          VA IR 's ralionale
                   rationale for partial concurrence,
                                         concurrence.

              DoDIG: NAVAJR                                   autlroriZillion requests to issue 7 UCAs
                          NAVAIR did not adequately prepare autlrorizlltion
               NAVAlR
       because NA   VAiR Instructions did not define UCA approval
                                                           appropa/ delega/ions
                                                                     delegations in the
                                                                                     tlte absence ofthe
                                                                                                      tire
       auJltor*d                                  adequaJe/y describe the need to begin per/oTmDnCe
       aU/horked approving offICial and did not adequately                                 perj'oTlrumce
       before dejinili:.olion
              dejinili:.otion and lite advent impact on Navy requirements
                                  tlte advent!

      NA YAIR Response: 11      factual/hal previous NA YAiR poUcy
                          II is factuallhat                   policy and guidance identifying
      authorized UCA approving officials was inconsisfenl.
                                               inconsistenl. However, this inconsislency has been
                                                                      Ihis inconsistency
      formally                        NAVAJR
      formally corrected All current NAV  AlR guidance consistently states that
                                                                            lhat any SES within the
      contracts                              "cognizant"" SES) has authority to approve UCA requests.
      contracls competency (versus only the "cognizant

             DoD/Go'
             DoDIG: NA V    IIAIR did not properly justify the
                                                           tlte issuance of<I VCAs
                                                                               UCAs because they did not
       adequately
       adequatt!ly describe why a VCA                  to meel
                                        was necessary 10
                                  UCA WQS                 meet the            require~nts
                                                                  lite Navy's requirements

      NA  JlAIR Response: With regard to the VCAs identified as either having insuffiCient
      NAVAIR                                                                         insufficient
                                     justification, in many ofthese cases, the Certificate of Urgency
      documentation or insufficient juslification.
              and/or information
      (COU) andlor
      (CaU)           in/ormation in the contract
                                         conlractfile                                                UCA .
                                                   file adequately justified the decision to issue a UCA.
           example, the draft report cites UCA number 14 (NOOOJ9·05-C-0030)
      For example.                                           (NOOOJ9·0S·C·OOJO) as one in which the
      UCA request did notnoJ adequately address the adverse impacts on Navy requirements if a UCA
      was not  issued NA VA1R
           noJ issued.     VA IR believes that the COU did address the adverse impacts ofdelaying
      performance. The COU clearly states that the need/or the systems integration laboratory
      ("SIL 'J was critical 10 (he
                               the VH-71
                                   VH- 71flight test program and that
                                                                    thaI wi/hout     SIL, Significant delays
                                                                         wilhout the SIL.
      would be realized in the program's schedule and moslmost notably.
                                                               no/ably, to the program's Initial
                                (JOC) milestone dote.
      Operational Capability (IOC)                date. Such a delay would result in the President, Vice­
      President,
      President. members of o/the
                              the President's Cabinet, and other dignitaries having to continue to fly in
      legacy aircraft with reduced performance and communications capability. NAVAlR  NAVAIR views thisIhis
                                             Ihe adverse impact statement ofthe COU.
      as adequate justification 10 address the                                    COu. Moreover, DoD
      IG'sassessments
      IG's assessments in these areas discount the somewhat subjective nature of   o/Ihe
                                                                                      the relevant DFARS
                                                                                                    DFAJ?S
               (2 17.7404-1
      language (21          (0)), which slales:
                   7.7404-1(0)).                ·'[I}he requeslfor
                                        states: "[tJhe  request for approval mustfullyexplain
                                                                             muslfullyexplain the
                                                                                              Ihe need
                                                                                                  need
      10
      to begin performance be/ore
                             before dejinitization,
                                    dejinilization, including the adverse impact on agency requirements
      resulangfrom
      resultingfrom delays in beginning performance." The term "adverse impact" is not further
                Finally, DODIG
      defined Finally,   DOD1G 's analysis seems 10   separate this DFARS
                                                    loseparale      DFAJ?S language into
                                                                                       inlO two separate
      requirements: (J) that a UCA authorization request must include justification addreSSing why a
      UCA is necessary 10to meet the Navy 's requirement(s),'
                                             requirement(s); and (2) a statement addreSSing the need to
      begin performance be/ore de./inilization
                                 dejinitization and the
                                                     Ihe potential
                                                         poten/ial adverse impacts 1to
                                                                                     0 Navy requirements
      if a UCA is not issued Without a basis in DFARS or other regulatory language, the distinction
      between these discrete requirements remains unclear.



                                                        2




                                                                   57
Naval Air Systems Command Comments






                    NAVAL AIR SYSTEMS COMMAND RESPONSE TO
                           DODlG DRAFT AUDIT REPORT ON
                           DODIG
                  "ADDITIONAL ACTIONS CAN IMPROVE NAVAL AIR SYSTEMS
              COMMAND'S USE OF UNDEFINlTIZED
                               UN DEFlN1TlZED CONTRACTUAL ACTIONS"
                    D2009-DOOOCG-0248_003, DATED 23 MARCH 20
                    D2009-DOOOCG-0248.003,                   11
                                                          2011

              DoD/G: NA
              DoDIG:     NAVAIR               definitiz.e 29 UCAs within the IBO-day
                              VAJR did not defmil;1.1!                        IBO-doy time/rame
                                                                                       lime frame because
      o/multiple
      a/multiple contributing/actors
                   contribuJing/actors tbm  that included a Jack
                                                             lack of contracting personnel to complele
                                                                                               complete
      dejinitizatwn,
      dejinitizlllwn, contractors not                                           timely rmznne"
                                     nol submitting adequate proposals in a limely     manner, or
      Government
      GoVt!rnment personnel changing contract contracl requirements after NA VAJR
                                                                               VAIR contracting
      personnel issued theIhe UCA. The con/raclon'
                                            con/raclors' proposal pricing updates and extended
                                                                                         wended
      contracl
      contract negolialions
                negoliaJions with Government personnel
                                                    fnrsonnel also impacted NA VAIR contracting
                    abiJiJy to
      personnel's ubiJiJy      dejiniliz.e UCAs within tire required time/Tames
                            /0 dfjinilil.l!                            time/rames

      NA VAIR Response: This slatemenl
                             slatement is accurate.
                                          accurate.

               DoDIG: NA NAVAlR
                             VAlR did not adequately support all required elements ofprofit
      determinations/or 5 UCAs because Ihe business clearance ml!morandum
                                                                      memorandum did not include
      suffICient support  tlral would allow an independent
                  supportlhal                   independenl party 10  determin~ if tire
                                                                   to delermine     Ihe contracting
                                                                                        conlracling
                 consideralum 0/
      offICer's consideration   of reduud
                                   reduced cost
                                           cosl risk was reflected
                                                         reflecled in profil
                                                                      profit objectives or the inpul$
                                                                                               inputs used
      to develop
      10 delll!lop the profu objecliW!
                       profd objectiYe

      NA YAIR Response: This slalemenl
      NAVAIR                 statement is accurate.
                                          accurate.

              DoDIG: NA V   YAIR
                              AlR did not obligale funds wi/lrin
                                                          within aUowable
                                                                 allowable limits
                                                                           limi/s for 3 UCAs because
      Ihey miscalcuJaJed  Ihe aUowable
            miscalculated the allowable obligalion
                                        obligation amount and did not    obligale funds in accordance
                                                                     nol obligate
      willr the
      with  Ihe contrador's
                conlractor's proposed requirements
                                      requirements/orfor 7 of 22 UCAs issued after the
                                                                                    Ihe August 2008
      DPAP mLmorandum because they did not take   lake steps 10
                                                             to comply wilh the
                                                                             Ihe Augusl
                                                                                 August 2008 DPAP
      memorandum

      NAYAIR Response: In two cases (UCA Numbers 30 and 31), NAVAIR
      NAVAIR                                                             NAVALR prOVided
                                                                                  provided documenla/;on
                                                                                            documentation
      clearly establishing thai
                            thaI ob/igalions
                                 obligations aligned with the contractors'
                                                              contractors ' spend plans (see table below).
                                                                                                   be/ow).
      In another case, (UCA 3), NAVAIR's
                                   NAVA IR 's actual "excess" obligation was 0.06%. or six one
      hundredthr  ofapercenl.
      hundredths of  a percent. Finally, in ana/her              51), the
                                              another case (UCA 51).  Ihe draft report states "NAVA1R
                                                                                              ·'NAVA1R
      conlracling
      contracting personnel initially obligatedfundingfor
                                        obligated/unding/or the UCA 0/67at 67 percent o/Ihe
                                                                                      afthe NTE value
      prior to receipt of
                       o/the
                          the contractor 's qualifying proposal,
                                                       proposal, violating
                                                                 viola/ing Ihe 50 percenllhreshold
                                                                                  percent threshold
      /imilalion established in 10 U.S.c. § 2326." However,
      limitation                                       However, a qualifying proposal was received prior
      to UCA award.
      10               Specifically. NAVA1R
               award Specifically,     NAVAlR received the qualifying proposal in November 2008 and
      awarded the UCA on 23 December 2008. The contractor          subsequently updated its proposal in
                                                        contraclor subsequenlly
      March 2009, prior 10 to dejinilization.
                              dejinitization.

      UCAI.
      UCA     Coo"",                 DO   Issue Dale
                                          Issue:       UCA NTF.
                                                       UCANTE        UCA Obliplion
                                                                         ObligJllion   Fo",""
                                                                                       Fo",,",          ForCC8S1 Ddin-
                                                                                                        Forecast
                                                                     (%orNTE)
                                                                     (% orNTE)         Ex pendirure •
                                                                                       Expenditure      ;l;zalion ••
                                                                                                        itization ..

      3.
      3.      NOOOI9.()S-J).OO)8
              NOOOI9.()S-J).{K)()8   .,   S128109
                                          '128109      $ 2,212,762
                                                         2.212,762   $1 ,106,381
                                                                     SI .I06.381       1211109
                                                                                       1111109          Ilfl4!09
                                                                                                        I lfl4!09
                                                                     (SO%)
                                                                     (' 0%)

      31      NOOO I9.()S-[).00()8
              NOOOI9-OS-0-0008       4'
                                     ~    5/
                                          SII1/09
                                              I09      $13,484,806
                                                       SI3,484,806   S6,607,Sjj
                                                                     $6,607,555
                                                                     (49%)
                                                                                       1011109
                                                                                       10i1109          10/28109
                                                                                                        '''''8109




                                                            3




                                                                         58
Naval Air Systems Command Comments






                      NAVAL AIR SYSTEMS COMMAND RESPONSRESPONSE
                                                              E TO
                             DODIG DRAFT
                                   DRAFr AUD
                                           AUDITIT REPORT ON
                    "ADDITIONAL ACTIONS CAN IMPROVE NA VAL  VAL AIR SYSTEMS
               COM MAND 'S USE OF UNDEFINITIZED CONTRACTUAL ACTIONS"
               COMMAND'S
                      D2009· DOOOCG·0248.003.
                             DOOOCG·0248,OO3, DATED 23 MARCH 2011
                                                              20 11


                • Pcr     contractor' s pre
                  Per the contractor's      ~a ward spend plan. this is the approximmc
                                        prc·award                           approximate date on which the
                fun ds obligated at UCA award would be fully expended by the contractor. resulting in a
                funds
                stop·work
                stop-work .
                •• 180 days from date
                ..                           award .
                                 dale of UCA award.

      Recommendation 1: Commander. Naval Air Systems Command:

            a.
            n. Require thai Naval Air System Command personnel better coordinate between
                                                                                       betwccn
      dcpanmenL~ 1
      dcpanmcnls Lo0 idcnlify                        req uircment~ as
                     ident ify changes in Government requiremenu;  ac; soon as practicable and
      document changes in the contract
                              COlllraCI file.


               b. Update Naval Air Systems Command's
                                           Command 's Instruction
                                                      Instruct ion 4200.330. "U ndefiniti
                                                                                ndefinitizcd
                                                                                          zcd
      Comraci
      Contract Actions,"
               Actions." to inc lude guidance on how contracting personnel can document their
      consideralion
      consideration of reduced risk 10
                                     to the contractor's profit or fee when defini
                                                                            ddinitizing
                                                                                   lizing
      underinilized conlraclual
      undefinilizecl comrJclual aclions.
                                actions.

      NAVAIR Response:

                Recommendation la: Partially COl/Cllr.       cOllcur. NAVAIR 's exisling
                                                                                       exi.\·tillg PID i/Ulmetioll
                                                                                                         ill.wrItctioll
      NAVA     IRINST 4200.378 ("
      NAVA1RINST                       (" Procllremem
                                          Procuremem Iflitiatioll
                                                             Illitialioll Docllmem (PID) Procesl''')
                                                                                                 Process " ) reqllires
                                                                                                               requires careful
      pJOfllling
      planning alldand requirement          identification. Moreover, NA VARINST 4200.J3D,
                         requirements... idellli/icatiol/.                                       4200. 33D, ".. Ulldejillitized
                                                                                                                 U"defi"ilized
      ColI/ract    Aeliolls" addresses policy and procedures for urgellt
      ContraCT Actions"                                                                            rhOl callnor
                                                                                 IIrgelU issues that     call1lot be
                                                                                                                   btt allficipared
                                                                                                                       alllicipllled
      in
      ill (Id\lallce.
          advance. While NAVA1R NA VAiR ha.f the   rhe conlro/s    ;11 place
                                                        cOII/rols ill  pillee 10
                                                                              to effectively manage UCAs,  UCA~'. Ollr
                                                                                                                    our unique
      missioll
      mission offen      ill volve~' ullplanlled
                 of rell involves    Imp/(mlled changes due     du e 10
                                                                      to budget COlISlraillls alldand OIher
                                                                                                       olher unforeseen
                                                                                                               IIl1foreseen
      variables,
      variables. No later thall    ,hall 30 Jun       2011,
                                              Jlln e 20  11, AIR 2.0 will issue a communique
                                                                                       commllnique 10 remind 'he       tile
      worl..force of Ihtt
                        Ihe importance
                              imporwnce of   oj plallll;I/g
                                                 planllillg {lIId
                                                             lllld identifying changing requiremellls
                                                                                               requiremel1ls as soon as
      possible llnd     documelltillg rltem
                  alld docllmellling      fhem illllle
                                                  in the comracljiie.
                                                          cOlllraclfile. III llddirioll,
                                                                                additioll, 110
                                                                                            I/O Imcr
                                                                                                 Juter Ilion
                                                                                                       /1/01/ 30 J"ly    2011.
                                                                                                                  Jllly 2011,
      NAVA1R 11';1/
      NAVAIR       will complete its draft of lhe    IIIe required update 10   to NAVAIRINST 42oo.33D to inelude a
      requirement to clearly docll/llelll
                                     docilmefll changes to UCA requirements ill the            Ihe COlltractjile.
                                                                                                    contract file. with 'he the goal
      of 11O\I;lIg
          having the update to the    Ihe hWTltctioll
                                           im'tmctiotl approved alldfillalized                    Oc:/ober 2011.
                                                                        alldjil/olized by 30 October         201 1.

                Recommendation Ib: Partillfly    Partildly COIlClIr.
                                                            ctJllCllr. Two Cllrrelll NAVAIR          in~lruclio1lS provide lhe
                                                                                           NAVA1R imlrllcriolls             rhe
      required guidallce
                  gllidwu;e re/mive 10 profit. projit. Collectively. NA VAIRINSf              4200.330, Undefinilizcd
                                                                                VA IRINST 4200.33D.        Undejillilized
      Comracl
      Commcr Action.'!
                   Ac:rions amIalld the Commc/s
                                         Contracts Competency          InSlmction (CCI) 4200.30H.
                                                       Competcncy IIIstmction                  4200.30H, Hu Business
                                                                                                               siness
      Clearance
      C/C(ITCIIICe ReviewlIIul
                      Revicw lIlId Approval Process emphasize the importance     importClnce 0/ of docllmetlfillg
                                                                                                   documenting reduced cost  cos,
      ri~k
      ri~·k illlhe
            in the profir/fee
                     proJitIJee clI/aly
                                    wwlysis/or
                                         ..iJ for the pre.deJinitjzatioll
                                                       pre.definilizatioll performallce
                                                                               perfomumce {Jlld and rhe
                                                                                                     Ihe posl·dejillitizarioll
                                                                                                         post·definitiZCllioll
      performance. NA VA IRINST 42oo.33D,      4200.33D, paragraph 4j      4j,, cite
                                                                                cites.. the
                                                                                        llle DPAP memo of  oj 29 Allg
                                                                                                                  Aug 2008 as
      reference (c).(c), (mel
                         cUld requires "wilen
                                            "when thefi'llIl
                                                     thejinal price of a UCA is negOfill1ed
                                                                                          negoliared lifter a SllbslOlllial
                                                                                                              substalllial
      portioll of
      portio"   oj the perfonllance
                          peiformollce has beell been completed, tlte tile profit analysis ill the price negotiatioll
                                                                                                             negotiation
      memorandum (i.e     (i.e.,.. business c1ellrance)
                                             ciellrllnce) lind
                                                          alld 'he
                                                                 the weigllred
                                                                     weighted guidelines '1lI1sl mllst document rellllcell
                                                                                                                   reduced cost
      risk ill life
               Ihe lIssigllmem
                     lIssigllmclI1 0/of allowable
                                        (IJlowable profit
                                                      projit jaclOrs   ;11 establishing negotialioll
                                                             facrars ill                                  objeclive~1or the
                                                                                             negotiation objeClivel"/or

                                                                    4




                                                                                    59
Naval Air Systems Command Comments






                     NA VAL AIR SYSTEMS COMMAND RESPONSE TO
                     NAVAL
                            DODIG DRAFT AUDIT REPORT ON
                   "ADDITIONAL
                   "ADDIT IONAL ACTIONS CAN IMPROVE NAVAL AIR SYSTEMS
              COM MAND'S USE OF UNDEFIN ITIZED CONTRACTUAL ACTIONS"
                     D2009-DOOOCG-0248.003, DATED 23 MARCH 2011
                                                           201 1

      filial price." COllsequcnrly.
                           COllsequenrly. 'he NAVAIR NAVA IR bllsilless
                                                               business clearance ;flSfruCfioll.
                                                                                        instruCtioll. CCI 4200.30H.
                                                                                                             4200.30H,
      paragrtlph 8. Profit/Fee Analysis. stipulates " Whetl
      paragrllph                                                    Wilen definitizinK
                                                                           dejinitil,.;IIK a UCA. address the  Ihe reduced WS1
                                                                                                                           cost
       ri.~k ll.\',ux:imcd
             wJ,rociared wil"
                            willI co
                                  co.ws
                                     ...,... if/curred           negotiation of Ihejillal
                                             ;fI(:urred prior to IIegotiation                        lIlId fhe
                                                                                 Iheftlltl/ price {lIId    Ihe reduced cosl
                                                                                                                        cost
       risk/or ,lie Ille remainder
                         remaillder of 'he        cammer (DFARS 2217.
                                            the COlllrllct               7404·6). ..
                                                                      J7.7404-6)

      While 'he
            the instructions clearly
                              dearly Sf(Ue
                                        Sf(lte Ihe rel/lliremems,
                                                   requiremellls. (IS evidenced     llie fllldi"K~i
                                                                      el/idenced by the  findings and
      recommelldmiolls included
                         il/cluded ill
                                   i ll lhis
                                        this (Iudit,                  rein!orcemem. No larer
                                              audit. this area needs reill/oreemem.         later than      JIII/e
                                                                                                   rhall 30 Jlllle
      201 J. AIR 2.0 will issue U
      2011.                            c0I1/III/mique 10 'he
                                    a comllllllliqlte         cofltrllctin g worJ..force delailing
                                                          lhe COfllract;IlC              derailing the reliitiremellls
                                                                                                        re(luiremellls
          c()lItrllcring persollllel
      for commerjllg     persollnello     dOCltmell1 their consideration
                                       to docllmelll        cOllsideration of reduced riskri:ik to the colltractor's
                                                                                                       contractor 's
                 fce wllell
      profit or fee   whell dejill
                            dejillitizillg  IIlldefinitized C01llraCIlIaJ
                                   jtizillg IIndejillitized COlllrUCl/luJ (lc/ioIlS.
                                                                          actiO/IS.


      Recommendation 2: Assistant Commander for Contf"dcts,
                                                Contracts, Naval Air Systems Command
                                                                             Command::

                                                        undefiniLized contractual actions with
             a. Develop procedures to avoid issuing undefinitized
      authorization requests that
                              rnat do not clearly:
                     ( I) State the need to begin performance before definitization and the
      adverse impact on Navy requirements.
                                 requirements.
                     (2) lustify
                          Justify why a undefinitized contractual action is necessary to meet the
              requircmcnts.
      Navy's rcquirements.

                          Dcfense Federal Acquisition Regulation Supplcmcnt
             b. Enforce Defense                                                 Subpart 2 17.74,
                                                                   Supplement SubpaI1217.74,
      "Undefinitizcd Contract Actions," and Naval Air Systems Command
      "Undefinitized                                            Command's  's Instruction
                                                                              Instruction
      4200.330, "Undefinitizcd
                 "Undefinit ized Contract Actions," to suspend or reduce payments to the
      contractor for untimely proposals.
      commctor

             c. Update Naval Air Systems Conulland Conunand Instruction 4200.30H, ;'Business
                                                                                       " Busi ness
      Clearance Memorandum (SCM) Review ood           and Approval Process," with requirements for
                                 i nelude in the profit seelion
      contracting personnel to include                   section of the business elellrooce
                                                                                   clearance
      memorandum: incurred costs, comracl
                                        contract type risk used for both the undefiniti7.ed
                                                                                undefinitized period
          the remainder of the contract,
      and me                     contT'JCI , and methe impact of the undefinitized period on me the
      contractor's profit or fee. In addition,
      contruclor's profil             add it ion, include guidance for contracting
                                                                         contracti ng persolmel
                                                                                      personne l 1to0
      document and discuss
                     di scuss the inputs made to the contract
                                                         eontract type risk portion of the
          Fonn 1547, "Record of Weighted Guidelines
      DO Form                                      Guidel ines Application."
                                                               Appl ication."

              d. Require contracting personnel to avoid obligating funds to thcthe maximum
      amount allowable for all undeOnitized
      amoum                     undeCini tized contractual actions so that
                                                                      mat both users and
      contractors have incemivc
      contraelors       incentive to coordinate early and often about proposals,
                                                                        proposals. contractual
      needs,
      needs. and fund ing.




                                                                 5




                                                                                 60
Naval Air Systems Command Comments






                      NAVAL AIR SYSTEMS COMMAND RESPONSE TO
                             DODIG DRAFT AUDIT REPORT ON
                    "ADDITIONAL ACTIONS CAN IMPROVE NAVAL AIR SYSTEMS
               COMMAND'S
               CO MMAND'S USE OF UNDEFINITIZED CONTRACTUAL ACTIONS"
                      D2009·DOOOCG·0248.003, DATED 23 MARCH 2011
                      D2009·DOOOCG·0248.003.                201 I

      NAVAIR Response:
             Re.·monse:

      Recommendation 2a
      Recomme"da/;on 2a:: Partially Concur.                               dOclllmmlalion oIllle
                                            NAVAIRINST 4200.33D requires. docllmemmion
                                    Concur. NAVAlR1NST                                   oJllle
      rationale   for the UCA.jo/lowinK
      ruJiollale jor        UCA'/o/lowillg DFARS 217.7404-/217.7404-1 if there
                                                                         ,here is lIof
                                                                                  ,wl/inre
                                                                                       lime 1to fi,lly price tile
                                                                                              0 fi,lIy        the COll/rael
                                                                                                                  cOiltmel
      acliolllJejore
      aclioll  before award. TIle nle COU must:
                                              mllst: (aJ/ully
                                                      (a)lully exp/ain
                                                                 explain the lIeed (0
                                                                                    (0 begin per/anI/alice before
      dejilliliZllIioll. il/dutiing
      dejilliriZlIIioll. illC/uliin/-: 'he adverse
                                           at/verse impacr
                                                      impuCl em            req"iremellt.~ re.
                                                               all agency requirements     re.l'Ifltillgjrom
                                                                                               ntltillgfrum delays ill
      beginning perfOYltlllllce:
      beg;'lIlill8  per/ormlmc:e: (b) show 11/(11 (I/tll inc/usion                   ilems. if lIppliclIble.
                                                                    ojnoll,"rgem ilems,
                                                         inelusioll o!mm-lIrgem                 lIpp/iclIble. is COl/sis/em
                                                                                                                  c:oIIsistelll
             good /Jusiness praclkes
      willi go(){II)usilless    practices (lI/d
                                            (lnd illihe         imerest oj
                                                 j" the best i1llerest  of Ihe govemmellf
                                                                                govemme1ll wilen when incillding
                                                                                                        incll/ding 1I
                                                                                                                    (I

      reqlliremelltjof II()1HIfJ,:t!1Il
      requirememJor          lIol1-l/rgelll spare
                                            sPl,rt: parts
                                                    panslmd
                                                          lmd :mppon   equipment ill (l
                                                              sltppon equipmem       a UCA:              show, if
                                                                                                lInd.(e) sholV,
                                                                                        UCA; mu/,(e)
      modify ing rile
      I1Im/if),ill}: rhe .w.:ope of 1I
                         scope        (I UCA w/lelf   peifOntlllllCe has already begllll.
                                              wlten per/omlallce                          IIIatlile modificalion
                                                                                 beglln, IIIalllle  modijictllioll is
      COllsistelll
      consi.welll w;lh
                    wilh g()(xl busilless practices
                         good business    praclices and
                                                    alld inhi the
                                                              Ihe best imere;)'1
                                                                       imere:1;t of Ihe goven/mem.
                                                                                        govemmem. Respoll.vibililyJor
                                                                                                      Re.\]X»l.'Iibilityfor
      cideqllcltely docllmelllillg
      (u/eqllllleiy dOCllmelllilig Ihe urgency
                                       urgellcy is witll
                                                   witli 'he
                                                         lhe progrCUll
                                                             progrwlI office pen'olmeJ
                                                                              persollllel Wid                  IIJe PE~.
                                                                                                  approved by the
                                                                                          aJld is approved

      The COU portio"
                 portion of
                          ofNAVA1R
                             NA VAIR Fon"Fon1l420011
                                               420011 is reviewed by COllfracts
                                                                         contracts competency
                                                                                    compelellcy persOflllel!or
                                                                                                   persOfme/for
      compliallce. with
      compliance         documcnlalioll requirements of DFARS 217. 7404- 1J and to delent/ine
                   witll dOCllmentation                                                      deten"i"e if
                                                                                                        If a UCA is
      reqllired
      required 10        fhe reqllired delivery date. Approval of (Ia CQIlfTClcts
                to meet the                                              cOllfmcts competency department
                                                                                                   departmellt head
      (or (/
          a NA WC chieJ    of,he
                    chief of the comTClc,ing
                                  cOIlfTCIcting office alfield
                                                       atfield siles)
                                                               sites) 10 lise a UCA 10 meet 'he.
                                                                                               the required delivery
      date
      dale is docllmemed
              documemed 011     Ihe bottom
                            Oil the boltom of NAVAIR
                                                NAVA IR Fonn
                                                          Fon" 420011 and      represelll~' ,heftnoJ
                                                                          alUl represellls  ,hejillal approval to
                                                                                                               f()

      begin processing a UCA (u       the contraclllal
                                  (IS 'he colltractllal vehicle.

       While Ihe          hWrllctiQlI am/associated enclosu
               the UCA imlrflc:riolllllUlllssociated      enclosures
                                                                   res address these areas.
                                                                                       arell.\', based 011
                                                                                                        Oil
      findings and    recommendaliolls it is evidem
                 alld recomme"dar;olls          evidelll that this
                                                                Ihis area requires rei"forcemem.
                                                                                     reinforcemem. No
             flum 30 JUli
       Ialer (Ium           e 201 1.
                       lillie     I, A IR-2.0 will issue a communique
                                     A1R-2.0                 commlmiqlle oUllining
                                                                           outlining the process (md   and
      SllbSl(llllive
      subswmive requiremems
                     reqlliremtmlSfor for UCA authorization
                                               alllllor;1.OI;On requests. IInII addition,   "0 Imer ,hcIII
                                                                                additioll. 110        Ih(m 30
      Jllly 20/1.
      JlIly 201 I. NAVA1R
                    NAVAIR will complele      its draft of
                                     complete ils            the reqllired
                                                          of,Ile required update to the tlte COU form
                                                                                                    fOntltoto
      more clearly    arlic:ulale requiremems.
              dearly arliClllme    requirements. wilh
                                                    with the goal of having
                                                                       havinK Ihe update 10      theJonn
                                                                                             10 theform
      approved (mdfinalized
                   andfillCllizecl by 30 October 201 I.

      RecommendatiQIl 2b : Parlially
      Recommendation                    Partially COIlCllr.
                                                   COllClfr. While this
                                                                      lhis recQmmendari(m
                                                                           recommendatioll c:ol/srilll1es               ml!llll.~ of
                                                                                                cOl/stitl/les (Ia valid means
      incemivi:illg     limely receip'
      illcelllivhing timely       receipl of COll1ractor
                                                 contractor proposals.     federal reglllClliQIIS
                                                              proposals, /edeml      regllilltions swte   Ihm tlte
                                                                                                   sWtc thai     the deci.
                                                                                                                     dec;;.\'ioll
                                                                                                                            'ion
      whether to employ these
      whelher                  Ihese methods
                                           melhods is ultimately                         oj the peo.
                                                                        Ihe discretion ()/
                                                        IIltimmely at the                        PCO. Specifically.
                                                                                                         Specifically, DFARS
        J 7. 7404·3(h)
      2 17,  7404·3(b) .\'wle.
                          .\'Wle,\':·; "/ilf
                                       "/ i]f the
                                              fhe comraClOr
                                                  cOlI/raclor doe.\'
                                                               does !lOI
                                                                     1101 Sll"mit
                                                                          submil a timely qualifying proposal.
                                                                                                           proposal, theIhe
                       officer may ;)~·tllpe"d
      contracting offic:er                'uspelld or reduce progress paymellis
                                                                           paymellts ""der
                                                                                        tmder FAR 32.503-6.
                                                                                                     32.503·6, or take other  olher
                       aclio". .. NA VAIRINST 4200.33D ah'o
      appropriate action,"                                           also slales
                                                                          slale;)' that progre.u pClyment,\·
                                                                                   Ihat progreH   poy",e",s may be
      reduced or suspellded
                      slIspended (IS   {IS olle
                                           one possible means 10 eliciT                     submissioll of
                                                                      elicir more timely sllbmi:'·.fioll     proposals. No
                                                                                                          o/proposals.
      later   Ih(1II 30 June 201 J.
      Jater tltcIII                    I, AIR 2.0 will send a cottllmmiqlle
                                                                 communique 10 'he    the workforce as a remi"derofth;s
                                                                                                             remindero/r/ris
      possible measure that may be taken by Contracting Officers.

      Recommendalioll
      Recommendatioll 2c: COl/cur.
                               Concllr. No la    ,er thal/
                                               later tha" 30 September      I. A
                                                             Seplember 201 I.    IR 2.0 wi/J
                                                                               AIR       willllpdllle
                                                                                              IIpe/afe lite
                                                                                                         Ihe
      templates provided as enclosures to CCl
      templares                                      4200.30H. "Business Clearance Memorandum
                                                CCI42oo.30H.
      (OCM)
      (BCM) Review and Approval Process." with requirements/or
                                                         requiremerlfsJor conrracting
                                                                          cOlllrac:ring persmmei
                                                                                        persmmelto    to
      indude in the profit :ie(:tiotl
      i"dude                              Ihe business clearance
                           Jec.:li()tI of the          dearance memorandum: incurred
                                                                                  incllrred (;osl,\'.
                                                                                            costs.

                                                                   6




                                                                                    61
Naval Air Systems Command Comments






                       NAVAL AIR SYSTEMS COMMAND RESPONS
                                                      RESPONSEE TO
                               DODIG DRAFT
                                     DRAFf AUDIT REPORT ON
                    "ADDIT
                    " ADDIT IONAL
                            IO NAL ACTIONS CAN IMPROVE NAVAL AIRA IR SYSTEMS
               COMMAND'
               COM MAND' S USE OF UNDEFIN ITIZED CONTRACTUAL ACTIONS"
                       D2009-DOOOCG-0248.003. DATED 23 MARCH
                       D2009-DOOOCG-0248,OO3,          MARC H 20 11

       COI/Iract              usedflu borh
       contract type risk uscd/or              the ,mdeji"itized
                                        balh 'he     Imdejillilized period and the remainder
                                                                                        remai/lder of the   Ille
       COIIlraCI. and 'he impact of the ulldejinili,ed
       contmel. lind                          ulldefilliti, ed period 0"  on Ihe  cOlllraclor's
                                                                             the cOlllraclOr    's profit orlee.fee.
       P/e(ue  lIote Ihal
       Please IIote  thai CCI4200.30H,          pilrtlgraph 8, slates
                           CC1 4200.30H, pilragraph                             " when deji"itiz;,rg
                                                                   stares 'hat "when     dejill i'il.ing (Ia UCA.
                                                                                                             UCA,
       address the redllced
                     reduced COS!cost risk associated
                                            associared withwilli COSl   incurred prior 10
                                                                  CO!i1 incllrred            Itcgol;mion o/ the
                                                                                          to Ilegotimioll         tlu:
      filial price lIlId
                   and Ihe reduced
                               redllced C :OSI ri,
                                         ,'osl  risk/or   the remainder of
                                                  \ 'kjor IIle               a/ the  camrac/ (DFARS 217. 7404-
                                                                                tlte COlllraCI
          Of        Ihis illjonnatioll
      6). " While '''is   ill/annatioll is currently      illl:lllded ;/1
                                             currenlly illl:Jllded     illihe
                                                                          'he inSlntctioll.
                                                                              inSlntctioll, AAIR
                                                                                               IR 2.0 willupdlllc
                                                                                                         willltpdllle
                           dcmjy.
           templates 10 clem!y.
       the lemplates

      Moreover, October 2009 changes 1to    0 (he Weiglued Guidelines Tool will a/.w
                                              the Weighted                        a /.w enslIre
                                                                                        ensu re Ilrm
                                                                                                ,hal
      COlllractor     and profit life
      contractor risk (lIId            adequately considered and
                                   are ade(Juorely             lind docltmellted.
                                                                    documented. As of that    date.
                                                                                         r"at dme.
      the Weighted Gllidelil/e!J  "Help "fea{lIre
                    Gllide/ille!; "He/p                   illformatioll regarding UCAs.
                                        "feature provides information                             on­
                                                                                    UCAs. Th e 011-
      lint! Weighled Guidelines Tool has been updmed
      line Weighted                                       with a UCA Block. ill accordallce
                                                  updated wi,h                                  wir"
                                                                                  accordance wilh
      DFARS 215.404-
            215.404-17-3(tlj(2j.
                     17-3(11)(2).



      Recon"n                   COllcur. NAVAIR will re-empllasize
                           2d: Cot/cllr.
                 e"dalioll ld:
      Recommelldatioll                                                                 gllidallce requiring
                                                              re-emphasize existing gllidollce    rel/lliring
      .mpportillg dl/w
      !illpportillg daw (e.g. spend plcllll'J  to jjllstify
                                     plall.\') (()          the W'WWIIS
                                                    ustify 'he  all/OUIllS ob!igmed
                                                                           obligated ()If
                                                                                     011 VeAs   I/O !mer
                                                                                          VeAl' 110 laler dum
      30 JJUN
            UN 2011 .




                                                                 7




                                                                                 62
